<html>
<title> - IDENTIFYING INDIAN AFFAIRS PRIORITIES FOR THE TRUMP ADMINISTRATION</title>
<body><pre>[Senate Hearing 115-136]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-136

   IDENTIFYING INDIAN AFFAIRS PRIORITIES FOR THE TRUMP ADMINISTRATION

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2017

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-358 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b6a1be91b2a4a2a5b9b4bda1ffb2bebcff">[email&#160;protected]</a> 
         
         


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 8, 2017....................................     1
Statement of Senator Barrasso....................................    27
Statement of Senator Cantwell....................................    40
Statement of Senator Cortez Masto................................    47
Statement of Senator Daines......................................     4
    Prepared statement...........................................     4
Statement of Senator Franken.....................................    45
Statement of Senator Heitkamp....................................    47
Statement of Senator Hoeven......................................     1
Statement of Senator Lankford....................................    21
Statement of Senator McCain......................................    35
Statement of Senator Moran.......................................    41
Statement of Senator Murkowski...................................    44
    Prepared statement...........................................    44
Statement of Senator Tester......................................     5
Statement of Senator Udall.......................................     2
    Prepared statement...........................................     3

                               Witnesses

Anderson, Hon. Keith B., Vice Chairman, Shakopee Mdewakanton 
  Sioux Community................................................    17
    Prepared statement...........................................    20
Keel, Hon. Jefferson, Lieutenant Governor. Chickasaw Nation......    22
    Prepared statement...........................................    23
Not Afraid, Jr., Hon. Alvin, Chairman, Crow Nation...............     8
    Prepared statement...........................................    10
Torres, Hon. Paul, Chairman, All Pueblo Council of Governors.....    27
    Prepared statement...........................................    28
Zinke, Hon. Ryan, Secretary, U.S. Department of the Interior.....     5
    Prepared statement...........................................     7

                                Appendix

Bates, LoRenzo, Speaker of the 23rd Navajo Nation Council, 
  prepared statement.............................................    62
Chavez, Ervin, School Board President/Faye BlueEyes, 
  Administrative Services Director, Dzilth-Na-O-Dith-Hle 
  Community Grant School (DCGS), prepared statement..............    59
Response to written questions submitted to Hon. Ryan Zinke by:...
    Hon. Catherine Cortez Masto..................................    74
    Hon. Al Franken..............................................    73
    Hon. John Hoeven.............................................    65
    Hon. James Lankford..........................................    72
    Hon. John McCain.............................................    65

 
   IDENTIFYING INDIAN AFFAIRS PRIORITIES FOR THE TRUMP ADMINISTRATION

                              ----------                              


                        WEDNESDAY, MARCH 8, 2017


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I call this meeting of the Indian Affairs 
Committee to order.
    I want to thank Secretary Zinke and all of our witnesses 
for being with us today, as well as all of the members of the 
Committee.
    As it turns out, we have a vote at 2:30 p.m., so we will 
begin our hearing and then members can come and go and get in 
the vote. We will proceed with the witnesses and then to 
questions in the order people arrived following the early bird 
rule.
    Also, I will ask that we begin, after some opening 
comments, with Secretary Zinke's comments and our other guests. 
However, I also have to note that the Secretary has a hard 
deadline of 3:40 p.m. by which time he has to depart.
    What we will try to do is commence in an expeditious manner 
and make sure that we give members of the Committee as much 
opportunity as possible to ask Secretary Zinke questions or 
make comments. Hopefully if there are other witnesses who can 
stay longer, there may be an opportunity for further questions 
for them even after the 3:40 p.m. timeline.
    With that, I do have some opening comments. I want to 
welcome Secretary Ryan Zinke, the 52nd Secretary of the 
Interior. That is historic. You are the 52nd Secretary. 
Congratulations to you.
    Again, I thank all of our witnesses for being here today. I 
would note that Secretary Zinke asked that he be on a panel 
with the other witnesses as a way of showing how he wants to 
work with you in a very collaborative way going forward. I 
wanted to acknowledge that.
    Secretary Zinke is appearing before this Committee just one 
week after being confirmed by the Senate and sworn into office. 
Thank you for following through with this commitment to this 
Committee. I believe this is the first Cabinet member from the 
new Administration to testify before the Senate in his or her 
role as a Cabinet Secretary. It is a first for you and we thank 
you for that as well.
    It is particularly noteworthy that he is testifying before 
our Committee on Indian issues, sitting alongside tribal 
leaders. I think that is significant. I also noted on your 
first day, you rode a horse to work. Having grown up with 
horses, I was frankly envious. It looked like a great time.
    Secretary Zinke. The horse's name is Tonto.
    The Chairman. It was a great idea. Probably a lot of us 
wish we could do that once in a while, because it is a lot of 
fun.
    Secretary Zinke has a positive track record of working with 
Indian tribes. As the lone Congressman from Montana, he 
represented seven Indian tribes. As then-Congressman, Secretary 
Zinke championed important issues for Native Americans 
including water rights, economic development, natural resources 
development, and introducing legislation that safeguards the 
lives of Native American women and children. This history 
should serve him well as he leads the Department of the 
Interior which carries out the government-to-government 
relationship, treaties, and the trust responsibilities between 
the United States and the 567 federally-recognized Indian 
tribes.
    The Department also provides important programs and 
services that are vital to the Indian communities and millions 
of Native Americans across our Country.
    I have additional remarks which, in the interest of time, I 
will make a part of the record.
    I again want to acknowledge and thank all of you for being 
here, particularly Secretary Zinke for here at our request and 
doing it so quickly.
    With that, I will turn to our Ranking Member.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Hoeven.
    This is an important oversight hearing to discuss 
priorities for Indian affairs at the Department of the Interior 
under Secretary Zinke's leadership.
    I would like to recognize Chairman Torres of the All Pueblo 
Council of Governors who is the former governor of the Isleta 
Pueblo and now is Chairman of the APCG. You have shown strong 
leadership in matters of tribal sovereignty and self-
determination. Welcome Chairman Torres. I look forward to 
hearing more about the council's priorities as you testify.
    Mr. Secretary, congratulations on your confirmation. When 
you and I met several weeks ago, I urged you to be a strong 
advocate for Indian Country. These are uncertain times for a 
lot of folks. You assured me that you intend to be that 
advocate as Secretary of the Interior.
    It is good to have you here although I am disappointed that 
you may have to leave a bit early. Our tribal witnesses 
traveled from all across the Country to hear and listen to you. 
I know that is why you wanted to be on this panel.
    To make the most of our time and to allow maximum 
questioning of the Secretary, I would like to submit my 
prepared opening statement for the record.
    I look forward to the testimony and working with all of you 
on the very important issues facing Indian Country. Once again, 
thank you to all the Indian leaders here today on this panel 
and in the audience.
    Thank you, Mr. Chairman.

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    Thank you, Chairman Hoeven, for holding this oversight hearing to 
discuss priorities for Indian Affairs at the Department of the Interior 
under Secretary Zinke's leadership.
    I first would like to recognize Chairman Torres of the All Pueblo 
Council of Governors. As former Governor of Isleta Pueblo and now as 
chairman of APCG, he has shown strong leadership in matters of tribal 
sovereignty and self-determination. Welcome, Chairman Torres. I look 
forward to hearing more about the Council's priorities.
    Mr. Secretary, congratulations on your confirmation. I saw that you 
rode a horse in to work on your first day. That certainly beats 
driving. In all seriousness, I look forward to working with you on the 
many important issues facing Indian country.
    When you and I met several weeks ago, I urged you to be a strong 
advocate for Indian country. These are uncertain times for a lot of 
folks, and you assured me that you intend to be that advocate as 
Secretary of the Interior.
    Secretary Zinke, you bring welcome expertise when it comes to 
Indian affairs. The very first bill you introduced as a member of the 
House was to federally recognize the Little Shell Tribe of Chippewa 
Indians. You also worked with my colleagues, Senators Tester and 
Daines, on the Blackfeet Water Rights Settlement Act. . .which was 
signed into law late last year.
    I have worked on tribal water settlements for New Mexico tribes 
over the years. . .and I know how important it is to establish 
certainty with respect to their water rights. . .and to sovereignty 
over tribal resources. Water settlements are also critical to the long-
term economic vitality for the states and surrounding communities. 
Congratulations to you, Senator Tester, Senator Daines, and the 
Blackfeet Nation.
    With your background, you are certainly aware that your 
confirmation comes with a tremendous responsibility: to be the steward 
of the federal government's tribal trust responsibility. Because 
Congress has placed primary responsibility over Indian matters with the 
Department of the Interior. . .your leadership will define how the 
federal government satisfies its trust duties to tribes and all Native 
Americans.
    The Federal Government's trust duties are vast. For example, the 
United States manages about 95 million acres for the benefit of tribes, 
55 million of which are held in trust. To put that in perspective, the 
federal government manages more land for the benefit of tribes than the 
entire National Park Service oversees across the United States.
    But the Federal Government's obligations go beyond management of 
tribal resources. This sacred duty also goes to tribal sovereignty, and 
the responsibility of the United States to meaningfully engage tribes 
on a government-to-government basis.
    I've said it before and I'll say it again: tribal consultation is 
more than just a check-the-box exercise. True consultation requires 
best efforts on the part of the United States to collaborate so that 
tribal voices are heard and meaningfully considered.
    I think you put it best in the message you sent to Interior 
employees on your first day: ``sovereignty needs to mean something.''
    Mr. Secretary, I couldn't agree more.
    Now, more than ever, we need Interior to be out front, leading on 
tribal issues. Whether we are talking about infrastructure, access to 
basic necessities like running water and electricity, or ways to 
improve tribal schools and economies. . .you will play a vital role in 
upholding the trust responsibility and making sure tribes are at the 
table.
    The Federal Government owes tribes nothing less.
    There are 567 federally-recognized tribes that are looking to you 
for your leadership.
    23 of those tribes are in my home state of New Mexico. Chairman 
Torres, who traveled hundreds of miles to testify here today, 
represents 20 Pueblos, including the Ysleta del Sur in El Paso.
    And they are all looking to you to set the tone for this 
Administration. . .to be its ambassador to Indian country and the 
primary advocate for Native people within the Federal Government.
    Accordingly, I expect that you will surround yourself with 
talented, knowledgeable public servants and hold them accountable.
    It is good to have you here, Mr. Secretary, as well as all our 
tribal witnesses. I'm glad the Administration has taken this 
opportunity to hear directly from tribal leaders at this hearing. I 
look forward to working with you all on these and many other issues of 
great importance to Indian country.

    The Chairman. Thank you, Senator Udall.
    Before turning to Senator Daines for some comments, I also 
want to mention that Jamie Azure, Councilman of the Turtle 
Mountain Band of Chippewa from my State of North Dakota was 
scheduled to be here but was not able to come. I want to 
acknowledge that Jamie Azure was to be here and thank the 
councilman but unfortunately, was not able to come for travel 
reasons.
    Now I would like to turn to Senator Daines for a note of 
welcome.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    This is a historic moment for Montana. We have the first 
Montanan to ever serve in a President's Cabinet. We have a 
Montana tribal leader, a tribal chairman testifying on the same 
witness panel and both of Montana's Senators are on the dais.
    Secretary Zinke and Chairman Not Afraid, welcome to the 
Committee. I want to note that both of our Montana witnesses 
are veterans of our Armed Forces. I would like to thank both of 
you for your service, your ongoing commitment to your Country 
and communities in your respective roles.
    With Secretary Zinke now leading the Department of the 
Interior, we can truly say it is a new day for Indian Country. 
It is a new day for tribal sovereignty and a new day for 
prosperous tribal economies.
    I took forward to discussing the most pressing actions that 
Congress and the Administration must take to support Indian 
tribes and uphold our sacred trust responsibility.
    Thank you, Mr. Chairman.

   Prepared Statement of Hon. Steve Daines, U.S. Senator from Montana
    This is an historic moment for Montana. Not only do we have before 
us the first Montanan to ever serve in a President's cabinet, we also 
have a Montana tribal leader testifying on the witness panel, and both 
of Montana's senators up on the dais.
    I'll start by welcoming you, Mr. Secretary. And I must say, it 
really does feel good to finally be able to call you ``Mr. Secretary!'' 
As Montanans, you, Senator Tester, and I had the privilege growing up 
in a state with a rich Native American heritage. Montana is home to 
twelve federally recognized tribes, seven Indian reservations, and the 
state-recognized Little Shell Tribe.
    We are also honored to be joined today by Crow Tribal Chairman AJ 
Not Afraid. Chairman Not Afraid was just elected last November and he 
and I had the chance to meet in my office a few short weeks ago. Among 
the items we discussed, Chairman Not Afraid shared with me the 
importance of coal to his nation's economy. Unfortunately, the Crow 
Tribe faced an uphill battle under the Obama administration with one-
size-fits all regulations like the EPA Power Plan and the Stream 
Protection Rule which would have deprived the Crow Tribe of desperately 
needed good-paying jobs.
    I'd also like to note that our two Montana witnesses have something 
else in common: both have served in our armed forces. Secretary Zinke 
as a Navy SEAL for 23 years and Chairman Not Afraid in the Marine Corps 
from 1995-1999. I want to thank you both for your service and your 
ongoing commitment to country and community in your respective roles as 
secretary and chairman.
    Now, with Secretary Zinke leading the Department of the Interior, 
we can truly say: It's a new day for Indian Country. It's a new day for 
tribal sovereignty. And it's a new day for prosperous tribal economies.
    I look forward to hearing from the two of you and the other 
witnesses, who are also esteemed tribal leaders from across the 
country, on what are the most pressing actions Congress and the 
administration must take to support Indian tribes and uphold our sacred 
trust responsibility.
    Thank you.

    The Chairman. Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    I too want to welcome Secretary Zinke to the Committee for 
the first time, the first of which I hope will be many visits 
to this Committee.
    Indian Country traditionally has been hard to explain to 
people, about the challenges that are. I know you know what 
those challenges are, sovereignty and self determination. I 
remember the first time I met with the large land-based tribes, 
I said, what are your priorities? After about 40 seconds, they 
said stop, you have to prioritize them. Look, the needs are 
many in Indian Country.
    I think you understand that, Secretary Zinke. I think you 
also understand the fact that without proactive leadership 
within the Department and a good head at the BIA, we are not 
going to get these problems solved. I look forward to your 
leadership.
    For Chairman Not Afraid, I want to welcome you to the 
Committee. It is also your first time as a newly elected Chair 
in Crow Country. We very much appreciate your leadership. You 
have some tough issues to tackle there but I know you are up to 
the challenge.
    With that, I want to thank the Chairman once again for the 
opportunity to speak.
    The Chairman. Are there other opening comments?
    We will turn to Secretary Zinke for your comments.

STATEMENT OF HON. RYAN ZINKE, SECRETARY, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Secretary Zinke. Thank you, Senator.
    Good afternoon, Mr. Chairman, Mr. Vice Chairman and members 
of the Committee.
    I would also like to extend a special thank you to my 
fellow Senators, Senators Daines and Tester. It is indeed a 
historic moment.
    While it is my first hearing, it will not be my last. I 
would also like to thank my esteemed members on both my right 
and left flank. I look forward with each of you to growing a 
relationship and working together.
    In the interest of time, I have consolidated my remarks to 
allow more questions. I know it is important.
    I entered the department, as you know, just a few days ago 
but the challenges are many and real. Regardless of our 
political parties, our duty as Americans and leadership is to 
uphold our trust responsibilities and consult and collaborate 
on a meaningful basis and a government-to-government basis with 
the tribes all across our Country.
    Growing up in Montana, I learned quickly that tribes are 
not monolithic. There are seven recognized tribes within 
Montana along with the Little Shell and the Chippewa Indians 
who are in the midst of the Federal recognition process. It is 
not easy. Each is spread out throughout the State of Montana 
and each has different aspirations, different opportunities and 
different ideas on how to govern within the tribes but most of 
all, self-determination is a unifying aspect.
    In my experience, one thing is clear. Sovereignty should 
mean something. As Montana's lone congressman, I made it a 
priority to remain accessible to each of our tribal members 
from the Crow Nation and the great Blackfoot Nation so we could 
collaborate on their priorities. I have always viewed them as 
equals and not rivals. While we shared and debated our 
priorities and ideas, we always sought common ground.
    As a warrior, I respected the culture and traditions and I 
agree with the unifying core value. If you must fight, fight 
for your people.
    Now I have the honor to lead the very department that 
unfortunately has not always stood shoulder to shoulder with 
the tribes and communities they represent. Many reservations 
continue to struggle, as we are all aware. Oftentimes 
unemployment rates and lack of business opportunities prevail. 
Indian schools, roads and houses are literally falling apart.
    Despite all this, the Administration has an opportunity to 
foster a new economic period of productivity through improved 
infrastructure, expanded access and the all of the above energy 
process.
    I fully understand that not all tribes have access to 
energy resources or gambling and each tribe is different. As 
mentioned above, sovereignty should mean something. A decision 
to develop or not develop and cast their own future should be 
supported.
    The President has remained steadfast in his commitment to 
infrastructure and seeks to address extensive maintenance 
backlogs that directly impede our Nation's economic growth and 
potential.
    Safe roads and bridges support tribal economic development 
and determination by incentivizing investments in tribal 
communities. It is hard to invest in a tribal community unless 
the school, the hospital and the roads are conducive to 
investment.
    While economic development and infrastructure will play an 
important role in revitalizing some communities, I recently 
read the Government Accountability Office High Risk Report for 
2017 and the determinations were disheartening and devastating. 
Words cannot capture how terrible it is in some of our schools 
in Indian Country that the Bureau of Education is responsible 
for. Each student deserves a high quality education that 
prepares them for the future.
    There are plenty of issues I know we will grapple with 
during my tenure at Interior. I know I have plenty to learn. I 
remain optimistic because the great Nations deserve great 
leadership and the Nations themselves have great leadership.
    Thank you for the opportunity to be before you today. I 
look forward to your questions.
    [The prepared statement of Secretary Zinke follows:]

 Prepared Statement of Hon. Ryan Zinke, Secretary, U.S. Department of 
                              the Interior
    Good Afternoon, Chairman Hoeven, Vice-Chairman Udall, and Members 
of the Committee. Thank you for inviting me to testify before you 
today. I would also like to extend a thank you to my fellow Montana 
Senators, Steve Daines and Jon Tester, for their service on this 
Committee and for welcoming me here today. This is my first hearing 
since being confirmed as Secretary of the Interior and it is truly an 
honor to be here before the Senate Committee on Indian Affairs to 
discuss the Trump Administration's vision for Indian Country. I am also 
fortunate to share the panel today with an esteemed group of Tribal 
leaders from across the country. I look forward to working together 
with each of you as equals to grow and strengthen Indian Country.
    I entered the Department just a few days ago, but the importance of 
my mission to partner with American Indians and Alaska Natives is one I 
do not take lightly. It is an issue of incredible importance to me 
personally. Regardless of political party, our duty as Americans is to 
uphold our trust responsibilities and consult and collaborate on a 
government-to-government basis with Tribes from Maine to Alaska.
    Growing up in Montana, I learned very quickly that our Tribes are 
not monolithic. There are seven federally recognized Tribes in Montana, 
along with the Little Shell Tribe of Chippewa Indians who are in the 
midst of the federal recognition process. Each of them are spread 
throughout the entire state, working on their diverse priorities to 
provide for their people. In whatever form their economic development 
takes, from online lending to energy development, all tribes are 
sovereign and we must respect their right to self-determination.
    In my experience, one thing is clear: sovereignty should mean 
something. As Montana's lone Congressman, I made it my priority to 
remain accessible to each of our Tribal members, from the Crow Nation 
to the Blackfeet Nation, so we could collaborate on their priorities on 
a leader-to-leader basis. I viewed them as equals, not rivals. We 
shared and debated our priorities and ideas while seeking common 
ground. As a warrior, I respected their culture and traditions greatly 
and I agree with the core value, ``if you have to fight, fight for your 
people.''
    I am incredibly proud of the work Congress did to advance Montana 
tribes' priorities, such as the Blackfeet Water Rights Settlement, 
which was signed into law as part of the Water Infrastructure 
Improvements for the Nation (WIIN) Act. The warriors of the Blackfeet 
Nation, led by Chairman Harry Barnes, greatly sacrificed time and 
resources for this historic achievement. Congress also made tremendous 
headway on the Little Shell Federal Recognition bill, which passed out 
of the House Committee on Natural Resources for the first time in 
history. And lastly, Congress worked with the Crow Nation to support 
their energy development potential by extending the Indian Coal 
Production Tax Credit and demanding their rightful seat at the table 
with the Federal Government to actualize their treaty rights. I am 
grateful to have Chairman A.J. Not Afraid sitting next to me today to 
tell his story about their future goals and priorities for success and 
look forward to working together in my new capacity of Secretary of the 
Interior.
    I now have the honor to lead the very Department that, 
unfortunately, has not always stood shoulder to shoulder with many of 
the Tribal communities for which it is tasked to fight. Many 
reservations continue to struggle with high unemployment rates and a 
lack of business opportunities. Indian schools, roads, and houses are 
literally falling apart. Despite all this, the Administration has an 
opportunity to foster a period of economic productivity through 
improved infrastructure and expanded access to an all-of-the-above 
energy development approach. I fully understand that not all nations 
have access to energy resources or choose to develop them and I respect 
their position. As I have mentioned earlier, sovereignty should mean 
something and the decision to develop resources is one that each tribe 
must make for itself.
    The President has remained steadfast in his commitment to 
infrastructure and seeks to address the excessive maintenance backlog 
that directly impedes our nation's economic growth and potential. Safe 
roads and bridges support Tribal economic self-determination by 
incentivizing investment in tribal communities. My team at Interior is 
already working to identify these top priorities within Indian country. 
I look forward to working with each of you here today and the Tribal 
leadership across our nation to continue this important discussion.
    While economic development and infrastructure investments will play 
an important role in revitalizing Native communities, the immediate 
issues facing the Bureau of Indian Education must be addressed to 
ensure long-term stability in Indian country. I read the Government 
Accountability Office (GAO) High Risk Report for 2017; the 
determinations were disheartening and devastating. Words cannot capture 
how terrible it is that children in schools overseen by Bureau of 
Indian Education are so poorly served. Each of them deserves a high-
quality education that prepares them for the future. Having served as 
Chairman of the Senate Education Committee during my time in the 
Montana State Legislature, I have a keen interest in education in rural 
communities. It is unacceptable that some of our students are attending 
schools that lack the most basic necessities, like insulation and clean 
water. We must also craft clear standards, develop measures for 
assessment, hire qualified teachers and principals to provide much 
needed leadership, and hold people accountable for mistakes. I do not 
expect to resolve these issues quickly, but I am personally invested in 
making real changes that will last.
    There are plenty of other issues I know we will grapple with during 
my tenure at Interior. I have plenty to learn, but with your assistance 
I remain optimistic that we can work together with Tribes to foster 
stronger and more resilient Native communities.
    Conclusion
    One of the great privileges of my life was participating in the 
memorial ceremony for Michael Bell, a fellow Navy SEAL from the Fort 
Peck Assiniboine and Sioux Tribe. In between deployments in 2006, he 
was tragically murdered. Mike was a warrior I had the privilege of 
instructing as he began his SEAL career. To meet his family and pay 
respect to the life and sacrifices he made was truly humbling. In an 
incredibly moving tribute that same day, I was adopted into the 
Assiniboine family as an honorary member, and given a name and song.
    I carry the honor of my traditional name, Wowonga Intacha, Seal 
Leader, with me today. As Secretary of the Interior, I will hold true 
the sacred words of my song, ``as I walk this road in life, I will help 
people as I go.'' That said, there is strength in numbers, which is why 
I will need each and every one of you to assist me. This includes being 
accountable for your actions as we warrior ahead and make tough 
decisions to strengthen Tribal communities. In the SEALs, we are 
frequently reminded that ``The Only Easy Day was Yesterday.'' As we 
begin the hard work before us, we must recognize that failure is not an 
option. I am here to listen, to accomplish your goals, and to move 
Indian Country forward to the best of my ability.
    Thank you for the opportunity to share my views with the Committee. 
I look forward to working with you all and Tribes across the country to 
better the Bureau of Indian Affairs, Bureau of Indian Education, and 
all programs at Interior that impact Indian Country.

    The Chairman. Thank you, Mr. Secretary.
    We will turn to our other witnesses. I ask again that you 
keep your comments as succinct as possible so we can get into 
the questions and answers.
    We will start with the Honorable Not Afraid, Jr.

 STATEMENT OF HON. ALVIN NOT AFRAID, JR., CHAIRMAN, CROW NATION

    Mr. Not Afraid. Thank you, Chair.
    Good afternoon, on behalf of the Crow Nation. I want to 
thank Chairman Hoeven, Vice Chairman Udall, Senators Daines and 
Tester for having this opportunity, holding this oversight 
hearing and identifying Indian affairs priorities for the Trump 
Administration which would be held up by Secretary Zinke.
    We feel that the Crow Nation, with the shoulder to shoulder 
aspect, can overcome some of the previous obstacles the Crow 
Nation had in the past as far as economic development, welfare 
and social being. I do appreciate the Administration appointing 
Secretary Zinke.
    For many years, coal has been the mainstay of the Crow 
reservation economy. However, various Federal regulatory 
initiatives during the previous Administration in D.C. have had 
a serious toll on the western coal industry, especially in the 
production of coal and other Indian coal owners.
    My administration is aggressively pursuing other economic 
development projects including renewable energy to diversify 
and reduce our dependence on coal revenues but those will take 
time, probably many years. To make major contributions to our 
efforts to achieve economic self sufficiency, one such tourism 
opportunity we can immediately address relates to a historic 
document, The Grizzly, a treaty of cooperation, cultural 
revitalization and restoration.
    The Crow Nation was instrumental in this treaty which to 
date has been signed by 123 tribal nations and provides a 
blueprint for the Crow and other tribal Nations in this sphere 
with the promise of cultural, economic and environmental 
revitalization.
    My written testimony provides a wide range overview on Crow 
economic priorities within a contemporary and cultural context. 
These foundational precepts of the tribal culture and 
governance are those we trust the Trump Administration will 
continue to recognize and further secure such as the welfare 
and being of Indian Country as a whole.
    Within our present portfolio, it is essential for the Crow 
Nation to affirm its primacy provided by the Surface Mining 
Control and Reclamation Act of 1977. In that same vein, under 
Section 412 of the recently passed Crow Water Rights 
Settlement, the Crow Nation is authorized to market energy from 
the Yellowtail Dam. Again, Honorable Secretary Zinke, we would 
correspond as to that aspect.
    A contract for marketing that power is a trust 
responsibility of the Trump Administration. I hope this can be 
expedited.
    As a sovereign Nation, the Crow Tribe has the right to 
regulate our own lands and our resources. In tandem, green 
economic initiatives and the vast mineral resources held by 
Crow lands can ensure an enduring economic self sufficiency for 
the Crow people.
    As Chairman of the Crow Nation, it is my responsibility to 
improve the quality of life for the Crow people by creating 
good paying jobs within the a diverse and expanding economic 
portfolio that reflects our ambitions for our seven future 
generations and at all times honor the values of our culture.
    At this time, I have a gift for the Committee which is the 
Grizzly Treaty signed by all the 120-plus tribal leaders 
mentioned earlier depicted here. Staff may have this. That is 
to show the importance of not only our culture but tribes being 
cohesive in identifying what we would love to secure.
    At this time, Mr. Chairman, Committee members, Secretary 
Zinke, I appreciate this opportunity and will answer any 
questions.
    Thank you.
    [The prepared statement of Mr. Not Afraid follows:]

Prepared Statement of Hon. Alvin Not Afraid, Jr., Chairman, Crow Nation

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Mr. Not Afraid. We will have 
questions after the testimony.
    Mr. Anderson.

 STATEMENT OF HON. KEITH B. ANDERSON, VICE CHAIRMAN, SHAKOPEE 
                  MDEWAKANTON SIOUX COMMUNITY

    Mr. Anderson. Thank you, Mr. Chairman, Senator Franken from 
my State, Secretary Zinke and fellow tribal leaders.
    On behalf of the Shakopee Dakota Tribal Government, let me 
take a few moments to describe our great expectations for 
Secretary Zinke and the Trump Administration.
    Let me begin by sharing a bit of background on the Shakopee 
Tribe. For centuries, my Mdewakanton ancestors as Dakota stood 
our ground on what remains of our land even as the great cities 
of Minneapolis and St. Paul have grown towards us, bringing 
both opportunities, and challenges.
    Our tribal enterprises have revitalized our region and our 
economy. It provides vital government resources for our tribe 
as well as for many of our neighbors. We are the largest 
employer in our county and have been for years.
    We have forged over 60 intergovernmental agreements with 
our neighbor cities and counties providing essential and 
diverse services like top flight fire and rescue, state of the 
art water treatment, large scale organic recycling and so 
forth.
    As an expression of our sovereignty and our culture, our 
tribe has become the largest tribal donor in Indian Country. We 
feel it is a responsibility. We are annually giving up to $18 
million in grants to less fortunate tribes and community 
organizations, 501(3)(c).
    This all rests on one basic foundation, that the Shakopee 
Dakota Tribe is a government, a sovereign, deserving the 
respect of other sovereign governments. Sovereignty is why the 
Shakopee Dakota believe Secretary Zinke is worthy of support.
    From his statement, on the first day he was nominated, 
Secretary Zinke has demonstrated that tribal sovereignty is one 
of his top priorities. As head of the Interior, Secretary Zinke 
now fills a key role in the government-to-government 
relationship with the Shakopee and every other tribal 
government.
    As lead Federal trustee, Secretary Zinke has a solemn 
responsibility to honor and protect our sovereignty, our self 
governance and our self determination. He knows that when 
tribal sovereignty is respected, economic self sufficiency 
follows. When tribal sovereignty is attacked or overrun as 
inconvenient, the very survival of our culture and way of life 
is threatened.
    Tribal sovereignty requires others to honor the decisions 
each tribe makes for its people, its resources and its own 
territories. Sovereignty is the shield against the hegemony of 
outsiders who think they would know what is best for us but who 
better than a tribe can know what is best for that tribe.
    The Shakopee Dakota Tribe looks forward to working with 
Secretary Zinke to use tribal sovereignty to advance self 
determination and self sufficiency.
    I will conclude by describing a few priorities we hope 
Secretary Zinke will help the President address. President 
Trump took office a few weeks ago promising change for regions 
of American that the Federal Government has long ignored. By 
any measure, those areas are much of Indian Country. They are 
remote, bypassed and ignored.
    We would ask Secretary Zinke to ensure that the Trump 
Administration's infrastructure initiative is shaped to enable 
Indian Country to catch up to the rest of America. Making 
infrastructure work for Indian Country would mean allocating 
funds for the expansion of new infrastructure in rural America 
so that Indian tribes can truly enjoy an equal opportunity for 
access to jobs, markets, education, health and services on par 
with the rest of America and still be able to live on their 
homelands.
    Secretary Zinke, as lead Federal trustee, you will have to 
work hard to ensure that every Federal agency adheres to 
meaningful consultation with each tribe effected by Federal 
action. By meaningful consultation, I mean it must mean early 
and responsive decision-making and should be in partnership 
with each affected tribal government.
    We would ask Secretary Zinke, as Indian Country's leading 
advocate with the Trump Administration, to forcefully support 
meaningful tax reform that allows only tribal governments, not 
other governments, to tax economic activity on tribal lands.
    These tribal empowerment zones where the only taxing 
authority is the tribal government would end the heavy burden 
of dual taxation in Indian Country. This would spur private 
sector investment in what would be minimum tax areas.
    This kind of big idea tax reform will help restore the 
territorial sovereignty of tribal governments over tribal 
economies further leading to self sufficiency.
    Finally, we would ask Secretary Zinke, as the steward of 
America's trust responsibility toward tribes and Native 
peoples, to protect and expand Federal funding for essential 
government services in Indian Country, services that have been 
systematically and chronically underfunded for generations.
    We will encourage the Secretary to make maximum use of 
funding to direct tribal governments through self determination 
and self governance authorities and thereby curb Federal 
bureaucracy's appetite to devour limited Federal funding before 
reaching Indian Country.
    When Secretary Zinke and President Trump face competing 
pressure to allow scarce Federal funds, we would ask Secretary 
Zinke to remind his colleagues in the Administration of the 
many contributions in blood and treasure that Native tribes 
have made to the welfare of the United States over two 
centuries. We will ask that he help maintain that Federal 
funding that is inherently owed all Indian tribes under the 
trust responsibility.
    I say that we are very, very fortunate. I do not want to 
mislead anybody about Indian gaming. For every one of us, there 
are probably 12, 15 or maybe 20 casinos that provide jobs and 
add to the government coffers. Tribal gaming is working. We 
just happen to be very, very fortunate. In the rural areas, it 
is not enough.
    Last, Secretary Zinke we would ask that you take the lead 
within the Trump Administration to secure early enactment of 
the Tribal Labor Sovereignty Act of 2017, Senator Moran's bill, 
S. 63, and restore seven decades of legal precedence by putting 
tribal government employers back on par with all the other 
sovereign government employers.
    This bill is about tribal sovereignty and not about 
professional negotiators ruling all of the work that you have 
done here in Washington to recognize the inherent rights of 
tribes. Sir, we will need your personal leadership to help make 
this correction.
    Mr. Chairman and Senators, thank you for this opportunity 
to outline some directions worthy of support for Secretary 
Zinke and President Trump.
    I am happy to answer any questions you may have or that I 
have not answered. Thank you very much.
    [The prepared statement of Mr. Anderson follows:]

 Prepared Statement of Hon. Keith B. Anderson, Vice Chairman, Shakopee 
                      Mdewakanton Sioux Community
Introduction
    Good afternoon, Chairman Hoeven, Senator Franken, Members of the 
Committee, Secretary Zinke, fellow tribal leaders.
    On behalf of my Shakopee tribal government, I want to thank the 
Committee for this opportunity to describe our great expectations for--

  <bullet>  What Secretary Zinke will be able to accomplish at the 
        Interior Department, and

  <bullet>  What we hope are priorities for the Trump Administration.

Let Me Begin by Sharing a bit of Background on the Shakopee Tribe
    For centuries, my Mdewakanton ancestors have lived in the larger 
area surrounding what remains today of our Shakopee Reservation. We 
Dakota people have stood our ground, even as the great cities of 
Minneapolis and St. Paul have grown up around us, bringing both 
opportunities, and challenges, to our tribal community.
    The Shakopee Tribe has played a key role in the economic 
revitalization of our region. Our tribally-owned and controlled 
enterprises are a vital source of governmental revenue for ourselves 
and for many of our neighbors.
    For years, the Shakopee Tribe has been the largest employer in 
Scott County, and regularly is awarded the honor of being one of the 
``top work places'' in Minnesota.
    The Shakopee tribal government has forged over 60 inter-
governmental agreements with our neighbors, for whom our Tribe provides 
essential governmental services in such diverse areas as--

  <bullet>  top-flight fire and rescue;
  <bullet>  state-of-the-art waste water treatment;
  <bullet>  alternative wind and solar energy production;
  <bullet>  large-scale organics recycling;
  <bullet>  diverse transportation planning and development; and
  <bullet>  mobile medical and emergency command centers.

    The Shakopee Tribe is the largest tribal donor in Indian Country, 
annually giving 18 million dollars or more in grants to less fortunate 
Indian tribes and community organizations. In recent years, we have 
focused our efforts on the production and distribution of food and 
information that supports healthy lifestyles, contributing over 5 
million dollars to efforts to strengthen Native food sovereignty.
``Sovereignty'' is Why the Shakopee Tribe Believes Secretary Zinke is 
        Worthy of Support
    From his days in the House of Representatives to the day he was 
nominated Secretary, Mr. Zinke has shown that tribal sovereignty is at 
the top of his list of priorities.
    As Interior Secretary, Mr. Zinke will fill a key role in the 
government-to-government relationship with Shakopee and every other 
tribal government. As lead trustee, Secretary Zinke has a solemn 
responsibility to honor and protect our sovereignty, self-governance, 
and self-determination.
    All of what the Shakopee Tribe does, for others, and with other 
governments, rests on one basic foundation--the Shakopee Tribe is a 
government, a sovereign, worthy of respect by other sovereign 
governments.
    Shakopee is a text book example of the fact that, when tribal 
governmental sovereignty is respected, economic success follows.
    At the same time, any attack on our core tribal identity--any 
bypassing of our sovereignty as inconvenient--is a direct assault on 
our culture and way of life.
    By definition, tribal sovereignty is expressed and exercised in 
different ways. Respecting sovereignty means the rest of us honor the 
decisions each tribe makes for its own people, its own resources, its 
own territory. Sovereignty is a tribe's shield against the arrogant 
hegemony of outsiders who think they know what's best for a tribe, 
whether they are called local governments, conservationists, 
environmentalists, federal trustees, or hungry corporations.
    Secretary Zinke understands and respects tribal sovereignty. The 
Shakopee Tribe looks forward to working with him and his colleagues in 
the Trump Administration to preserve and protect tribal sovereignty in 
ways that advance tribal self-determination and self-sufficiency.
Here Are Some Priorities That Secretary Zinke Can Help President Trump 
        Address
    President Trump took office a few weeks ago promising change for 
the regions of America that the federal government has long ignored. By 
any measure, that includes much of Indian Country.
    The Shakopee Tribe will ask Secretary Zinke to ensure that the 
Trump Administration's infrastructure initiative is shaped to enable 
Indian Country to catch up to the rest of America. That will mean 
allocating public funds to extend new infrastructure into rural America 
so that Native American communities can finally have an equal 
opportunity to access jobs, markets, education, health and other 
services on par with the rest of Americans without having to move away 
from our homelands. It will also mean that Secretary Zinke, as the lead 
federal trustee for tribes, will have to work hard with every federal 
agency to ensure they adhere to meaningful consultation with each 
tribal government affected by a proposed federal action. Meaningful 
consultation means real, open, early, and responsive mutual 
decisionmaking in partnership with tribal governments.
    We will ask Secretary Zinke, as Indian Country's leading advocate 
within the Trump Administration, to forcefully support meaningful tax 
reform that allows only tribal governments--no other governments--to 
tax economic activity on Indian land. This would end the heavy burden 
of dual taxation in Indian Country. And it would spur private sector 
investment in what would be low or no-tax tribal empowerment zones. 
This kind of bold, big idea would restore the territorial sovereignty 
of tribal governments over their economies. We will also ask Secretary 
Zinke to encourage more targeted and robust tax credits for investment 
in Indian Country.
    We will ask Secretary Zinke, as the steward of America's trust 
responsibility toward Indian tribes and Native Americans, to protect 
and expand federal financial support for essential governmental 
services in Indian Country that have been systematically and 
chronically underfunded for generations. We will encourage Secretary 
Zinke to make maximum use of direct funding to tribal governments 
through the Indian Self-Determination and Tribal Self-Governance 
authorities, and thereby curb the federal bureaucracy's tendency to 
consume limited federal funding before it can reach Indian Country. 
When Secretary Zinke and President Trump face competing pressures to 
allocate scarce federal funds, we will ask Secretary Zinke to remind 
his colleagues in the Administration of the many contributions in blood 
and treasure that Indian Country has already made to the welfare of the 
United States. The Shakopee Tribe's financial success in the gaming 
market is an exception to the experience of most tribal governments, 
and so we will ask Secretary Zinke to help preserve the federal funding 
that is owed all Indian tribes under the trust responsibility.
    And finally, we will ask Secretary Zinke to take the lead within 
the Trump Administration to secure early enactment of the Tribal Labor 
Sovereignty Act of 2017, Senator Moran's bill--S. 63. That bill would 
restore seven decades of legal precedent by treating tribal government 
employers the same as all other sovereign governmental employers. This 
bill is not about labor unions, it is about tribal sovereignty, about 
our tribal right to set our own laws for our own employees on our own 
lands.
    Mr. Chairman, thank you for this opportunity to outline some new 
directions we believe are worthy of support from Secretary Zinke and 
President Trump. I would be most pleased to answer any questions you 
may have.

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. [Presiding.] Thank you.
    Let me take a moment, as the temporary Chairman, to also 
introduce the next person on our panel. I will take some 
personal privilege on this. This is a friend and a fellow 
Oklahoman, Lt. Governor Keel.
    I would introduce him as a leader of the Chickasaw Nation, 
an extremely well run tribe which has made tremendous progress 
in many areas in Oklahoma, a great partner in Oklahoma. He also 
is someone who has been a past President of the National 
Congress of American Indians. He brings a lot of experience 
with that.
    Lest you consider fooling with him, he is also a 20-year 
Airborne Ranger with two extended tours in Vietnam, a Bronze 
Star with a V for valor and two Purple Hearts.
    We are glad you are here and I look forward to receiving 
your testimony as a fellow Oklahoman.

    STATEMENT OF HON. JEFFERSON KEEL, LIEUTENANT GOVERNOR. 
                        CHICKASAW NATION

    Mr. Keel. Thank you, Senator.
    Mr. Chairman and fellow Senators, thank you for allowing me 
this opportunity.
    Today, I speak on behalf of the Chickasaw Nation as 
Lieutenant Governor and on behalf of Governor Bill Anoatubby 
and the people of the Chickasaw Nation.
    We look forward to working with this Committee and 
Secretary Zinke in protecting our treaty rights and enhancing 
the Federal tribal trust relationship. Full Federal recognition 
of tribal sovereignty, as affirmed by the United States 
Constitution, is of paramount importance to Indian Country.
    We look to this Congress and the Trump Administration to 
continue the long-standing Federal policy of engaging with 
tribal sovereigns on a government-to-government basis. This 
principal is fundamental to all issues that will come before 
you arising from Indian Country. All too often, Federal 
statutes and regulations treat tribal governments differently 
than every other form of government. We look forward to making 
sure that the tribal consultation policy is continued.
    We commend the new Administration's policy to affirm and 
commit to existing policies. One example of this body 
strengthening Federal laws provision of parity to tribal 
sovereigns is the action you just heard from the previous 
speaker relating to the National Labor Relations Board.
    I commend Senator Moran for moving this bill forward. We 
look forward to seeing that come to fruition.
    We applaud the President's commitment to the veterans who 
have served and proudly serve today to protect our great 
Nation. We ask that Secretary Zinke work with the Department of 
Veterans Affairs to include them in future consultations and 
considerations.
    One thing Secretary Zinke is not charged with but we ask 
for is swift action to reauthorize the Native American Housing 
Assistance and Self Determination Act which does affect our 
veterans and all of our tribal members across the Country.
    We support the concept of vigorously investing in our 
Nation's critical infrastructure. We believe tribes should be 
full participants in any and every program authorized by 
Congress and that funds for such projects should flow directly 
to tribes and not necessarily run through State governments.
    Not all tribes have a good relationship with their State 
governments. Fortunately, we do, but that is not always the 
case.
    Again, we believe tax reform would present great 
opportunities to incentivize tribal investment and bring badly 
needed opportunities to Indian Country. Your success in these 
efforts would have a tremendous positive impact on Indian 
Country.
    The Chickasaw Nation works closely with the Federal 
Government in the provision of a wide variety of services to 
our citizens including programs addressing suicide prevention, 
mental health and substance abuse, child welfare, domestic 
violence and sexual assault.
    We administer many of these Federal programs under self 
governance compacts and have been a leader in the IHS Joint 
Venture Program and other joint venture activities. We commend 
you and ask that Secretary Zinke continue his commitment to 
ensuring that the compacting system remains strong.
    We appreciate passage of the Violence Against Women Act by 
Congress which is key to the protection and well being of 
Indian women, which is among the most basic responsibilities of 
any government.
    Education is a high priority for the Chickasaw Nation. We 
believe that preparing our people for the future and giving 
them the right tools for success begins with education.
    Broadband Internet availability is an important aspect of 
the infrastructure challenges facing Indian Country. Tribal 
citizens access only Internet connectivity speeds that are far 
below the FCC broadband standard.
    We believe that Interior could help to facilitate the 
infrastructure challenges in Indian Country and would ask you 
to work with the FCC to make that happen, Mr. Secretary.
    We would ask the government to continue to provide 
supportive funding for tribal repatriation efforts in 
protecting our sacred lands. Further, we would ask that you 
consider developing legislation to aid indigenous people 
seeking international return of our ancestors and the items of 
cultural patrimony.
    We support the Department of the Interior in reforming the 
Indian Trader Act and the attendant regulations. We encourage 
the Department to both modernize the regulatory framework and 
streamline mechanisms for tribes to conduct direct oversight of 
the Federal regulatory system via the appropriate self 
governance compacts.
    We look forward to working with you, Mr. Secretary. I thank 
you for your service and look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Keel follows:]

    Prepared Statement of Hon. Jefferson Keel, Lieutenant Governor. 
                            Chickasaw Nation
    Chairman Hoeven, Ranking Member Udall and members of the Committee, 
thank you for inviting me to testify in today's important hearing to 
identify Indian Country priorities for the new Trump Administration. My 
name is Jefferson Keel. I serve as the Lieutenant Governor of the 
Chickasaw Nation and speak today on behalf of Chickasaw Nation Governor 
Bill Anoatubby and the people of the Chickasaw Nation.
    We look forward to working with and supporting Secretary Zinke in 
protecting our treaty rights and carrying out the federal trust 
relationship to tribes. Full federal recognition of tribal sovereignty, 
as that status is recognized in the United States Constitution, is of 
paramount importance to Indian country. We look to this Congress and 
the Trump Administration to continue the long-standing federal policy 
of engaging with tribal sovereigns on a government-to-government basis. 
This principal is fundamental to all issues that will come before you 
arising from Indian country.
    Federal policies supporting American Indian tribal self-
determination and self-governance grows directly from the government's 
respect for the importance and value of tribal sovereignty. It is a 
simple fact that these policies work because they rest on the core 
principal that tribal peoples are in the best position to address the 
issues affecting their own communities. This Committee has helped lead 
the way in crafting policies that support tribal self-determination and 
self-governance, and while we have accomplished great things, much 
remains to be done.
    All too often, federal statutes and regulations treat tribal 
governments differently than every other form of government. While the 
Constitution establishes tribal governments as sovereigns with rights 
and responsibilities similar to those of states, in practice, policies 
are almost always more restrictive for tribes. Indian country has, 
accordingly, long called for parity--for the treatment of tribal 
sovereigns in a manner consistent with what states and other sovereigns 
within the United States system are afforded by federal law. Indeed, 
given the federal fiduciary obligation to protect tribal sovereignty, 
we believe our argument for such treatment is even stronger than the 
states, in many instances.
    We commend the new administration's policy to affirm and commit to 
existing tribal consultation policies, which establish frameworks for 
meaningful government-to-government engagement and collaboration. We 
believe such frameworks are essential to a high functioning federal-
tribal dynamic and call on this Congress and Administration to deepen 
and enhance its commitment to effective consultation, wherever and 
whenever possible. We believe all executive departments and agencies 
should consult and collaborate with tribes on the development of 
federal policies with tribal implications, and we believe this is true 
whether the government is considering the establishment of a new 
statutory or regulatory provision or the repeal or abrogation of an 
existing one. Doing so will strengthen our government-to-government 
relationship and further empower the unparalleled progress made in 
Indian country since the advent of these policies in the late-1960s.
    One example of this body's pragmatic responsiveness to 
strengthening the federal law's provision of parity to tribal 
sovereigns is recent action relating to the National Labor Relations 
Board. Several years ago, the Board administratively set aside decades 
of settled policy and law and determined, notwithstanding its own 
profession of having no expertise in federal Indian law, that tribal 
actors are not all entitled to the protection of tribal sovereignty. 
Specifically, the Board concluded that non-tribal labor organizations 
could assert the protections of the National Labor Relations Act 
against tribal government employers--treating tribal governments in a 
manner that no state or territory has ever been subjected to. The 
Chickasaw Nation litigated the matter for several years before the 
Board finally acknowledged that our sovereignty and treaties with the 
United States demand the parity of treatment we claimed. But other 
tribes do not benefit from our treaties, and nothing necessarily 
precludes the Board from again changing its mind as to what respect it 
should afford these sources of federal law. I want to thank this 
committee and our champion on this issue, Sen. Jerry Moran, for 
recognizing the untenable position in which this put tribal sovereigns 
and the quick approval of S. 63, the Tribal Labor Sovereignty Act. Mr. 
Chairman, I respectfully urge you to work closely with your colleagues 
to bring this important issue to a vote by the full Senate as soon as 
possible. Basic fairness and adherence to long-standing policies 
regarding tribal sovereignty would support such action.
    We also urge swift action to reauthorize the Native American 
Housing Assistance and Self Determination Act (NAHASDA) by the 
committee and the Senate. For several years running, the House has 
overwhelmingly passed a NAHASDA reauthorization with a large bipartisan 
majority, but Indian country has been forced to wait on reauthorization 
in the Senate because one or two senators have put holds on the 
measure--blocking the will of the body and ignoring the needs of Native 
peoples. This issue is too important to let another two years go by 
without approval. Indian country and this successful program deserve 
better.
    Another timely issue of critical concern is the status of the 
Indian Health Care Improvement Act. That measure was permanently 
reauthorized after a decade-long bipartisan effort to enact the 
measure; however, it was unfortunately tucked into the Affordable Care 
Act in 2010. The Indian Health Care Improvement Act, which stands apart 
from the rest of the Obamacare measures, is critical to the provision 
of health care throughout Indian country and must be safeguarded in any 
effort to change federal health care laws.
    There are a number of other issues inside the Affordable Care Act 
that I would like to bring to the committee's attention. We believe, 
for example, that the employer mandate represents an unwarranted 
intrusion on tribal self-government. In addition to health services to 
our tribal citizens, the Chickasaw Nation provides generous health care 
insurance coverages to all its employees--benefits that far exceed the 
standards in the prevailing market--and the Act's mandate created 
complications and burdens where no problem could be shown. We would 
also point out that the Act uses a definition of Native Americans that 
differs from that found in other parts of the U.S. Code and the 
regulations, which has been widely acknowledged as a drafting error 
over the years. We urge the committee to correct this error in any 
legislation on the subject. Finally, tribal health departments have 
well developed third party payer arrangements with Medicare, Medicaid, 
the Department of Veterans Affairs, and other federal programs. 
Congress should pay careful attention to nuance and detail in 
overhauling the Act so that these relationships are not inadvertently 
disrupted or unsettled.
    We applaud the President's commitment to the veterans who have 
served and proudly serve today to protect our great nation. On a daily 
basis active duty members become veterans, and too many veterans return 
home to find that their greatest challenges still lie ahead. The 
Chickasaw Nation is committed to finding the path for our veterans to 
become leaders, both in the community and tribal government, teachers, 
business owners, active citizens and successful parents. We work 
closely with the U.S. Department of Veterans Affairs and have 
established a good relationship with the Office of Tribal Government 
Relations in the VA.
    President Trump has spoken for many months about a wide-ranging 
infrastructure package. We support the concept of vigorously investing 
in our nation's roads, airports, waterways, water and sanitation 
systems, and other critical infrastructure. Indian country has, for 
generations, faced chronic shortages of public and private investment 
in this area, which adversely affects public safety as well as 
opportunities for sustainable economic development and self-
sufficiency. We believe tribes should be full participants in any and 
every program authorized by Congress for the rehabilitation of aging or 
the development of new infrastructure. We further believe funds for 
such projects should flow directly to tribes rather than be run through 
state governments, which have not always adequately addressed Indian 
country needs. In Oklahoma, we work closely with our colleagues in 
local government and the Oklahoma Department of Transportation to 
identify and execute projects that help the entire community but are of 
particular importance to tribal citizens. Without an ability to bring 
funds under our control to the bargaining table, tribal needs and 
interests would likely not receive the prioritization they deserve.
    We believe tax reform would present great opportunities to 
incentivize tribal investment and bring badly needed opportunities to 
Indian country. We commend the Native American Financial Officers 
Association and the outstanding work they have done identifying 
workable tax and pension reforms that would have an immediate 
beneficial impact on tribal economies. In particular, we commend 
efforts to repeal the ``essential governmental function'' rule that 
applies to tribal bonds and which forces tribes to maintain two 
separate pension or employee retirement programs. Members of this 
committee and the Senate Finance Committee have been working hard to 
address this particular matter, and we thank you. Your success in these 
efforts would have tremendous positive impact on Indian country.
    We also believe that the New Markets Tax Credit program has already 
demonstrated its utility for Indian country development and suggest the 
program should be expanded and stabilized. The Chickasaw Nation was 
recently awarded a $20 million allocation and is facilitating economic 
development projects throughout Indian country with these monies--
projects that are creating jobs, enhancing infrastructure, and 
deepening service provision and tribal entrepreneurship. We previously 
used a New Markets Tax Credit allocation to completely redevelop an 
outdated and dilapidated Indian Health Service facility in Ada, 
Oklahoma, to serve now as the Carl Albert Service Center, a multi-
purpose tribal government facility. Both the construction and the 
operation of this new facility has been an economic and programmatic 
boon to the community. We believe Congress should support the 
allocation of a stable revenue stream to support the implementation of 
this program in Indian country.
    The Chickasaw Nation works closely with the Federal Government in 
the provision of a wide variety of services to our citizens. Often 
times, we administer federal programs under 638 self-governance 
compacts. We have been a leader in the Indian Health Service's joint 
venture program--which we used in conjunction with $220 million of our 
own funds, to construct and equip three health facilities, including 
the 80-bed Chickasaw Nation Medical Center in Ada, Oklahoma, which 
serves American Indians throughout southeast Oklahoma. Our facilities 
in Ada, Ardmore, and Tishomingo provide critically needed health 
services in this region, which we operate in conjunction with other 
services and programs addressing suicide prevention, mental health and 
substance abuse, child welfare, domestic violence, and sexual assault. 
Without continued federal support for self-governance compacts, Indian 
country, American Indians, our citizens would be deprived of these 
programs and services, and we commend you for your continued commitment 
to ensuring that the compacting system remains strong and vital to the 
federal-tribal relationship.
    We appreciate Congress's passage of the Violence Against Women Act, 
which statute is key to the protection and well-being of American 
Indian women--among the most basic responsibilities of any government. 
This legislation provides American Indian tribes the tools to enable to 
do even more to help keep Native American women safe through effective 
law enforcement and prosecution. We thank you for your continued 
support for this measure, now and when it is due for reauthorization.
    Our own work under the Violence Against Women Act supplements our 
other law enforcement programs throughout the Chickasaw Nation. We have 
made it a priority to work closely with federal, state and local law 
enforcement agencies within a complicated jurisdictional landscape to 
protect and serve all citizens of Oklahoma, and federal support for 
these efforts through the Self-Governance Compact and Community 
Policing Act is important to continued success of the Chickasaw 
Lighthorse Police.
    Additional governmental services include the Johnson-O'Malley 
education program, high school equivalence tutoring and testing. 
Education has long been a high priority for the Chickasaw Nation. 
Therefore, we request the Chickasaw Nation High School Equivalency 
(HSE) testing centers and certification and transcript issuing 
processes be certified and recognized by the U.S. Department of 
Education. While the U.S. Department of Post-Secondary Education 
currently only recognizes state-issued HSE transcripts, the Chickasaw 
Nation HSE testing center policies are set up to adhere to equivalent 
security and testing practices as those of state recognized testing 
centers. We have a signed and approved Educational Testing Service 
contract in place to provide the HiSET exam which is one of three HSE 
tests federally recognized by the U.S. Department of Education and has 
been approved in 21 states. The exam aligns itself to the College and 
Career Readiness Standards for Adult Education.
    Broadband Internet availability is an important aspect of the 
infrastructure challenges facing Indian Country. Tribal citizens access 
only Internet connectivity speeds that are far below the FCC broadband 
standard. This limitation stifles economic development, technical 
advances like tele-medicine, and negatively impacts education by 
accelerating the already increasing homework gap. Current federal 
funding models are aimed primarily at for-profit businesses and often 
focus on specific institutions that provide too little service to those 
in need. Tribes are dedicated to improving the lives of the 
traditionally underserved including tribal citizens, rural schools and 
health care institutions, and those living in economically depressed 
areas. Directing funds to groups such as tribes could improve the 
likelihood of these funds benefiting those who need it most, and we ask 
that you remember Indian country when considering any measure to 
upgrade the country's Internet availability.
    Chickasaw identity is founded upon a unique and special heritage 
embodied in our language, our sacred sites and our traditional 
knowledge. Repatriation of our ancestors' remains is extremely 
important to us. The repatriation process, however, can take many years 
to complete. The Chickasaw Nation aboriginal homeland in the 
southeastern United States is rich with generations of our ancestors, 
including archaeological sites and sacred burial places. In 2016 the 
Chickasaw Nation actively pursued 21 repatriations, which will allow us 
to take care of 4,034 of our ancestors and thousands of their funerary 
objects. We ask the government to continue to provide supportive 
funding for tribal repatriation efforts, both culturally affiliated and 
culturally unidentifiable. We further ask that you consider developing 
legislation to aid indigenous peoples seeking the international return 
of ancestors and items of cultural patrimony.
    Finally, I want to touch on a recent announcement by the Department 
of the Interior about reforming the Indian Trader Act and attendant 
regulations. We believe this effort to be representative of the well-
intended work by career staff across Administrations of both parties. 
We support this effort and believe there is good work to be done on 
this front. We would, and will, encourage the Department both to 
modernize the regulatory framework and to streamline mechanisms for 
tribes to conduct direct oversight of the federal regulatory system via 
appropriate self-governance compacts. We would, and will, also urge the 
Department to proceed carefully in its effort--with the principal of 
``do no harm'' clear and foremost in mind. Given the complexities of 
the federal common law of Indian affairs, any statutory and regulatory 
change must be approached carefully and with due consideration of 
potential unintended consequences. Indeed, a number of important 
Supreme Court decisions rest on the preemptive scope of the Indian 
Trader Statutes and implementing regulations. In attempting any update 
of those laws, the Department must not displace or alter the careful 
balance of sovereign interests that those decisions uphold. While we 
support update and reform--indeed, we would applaud it--we also ask 
that caution be observed in all future actions.
    Thank you for your time and for holding this important hearing. I 
look forward to answering your questions.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. [Presiding.] Thank you very much, Lt. 
Governor Keel.
    I would next like to add my welcome to Chairman Torres to 
that already offered by Senator Udall.
    We will next hear from the Honorable Paul Torres, Chairman 
of the All Pueblo Council of Governors from New Mexico. 
Welcome.

STATEMENT OF HON. PAUL TORRES, CHAIRMAN, ALL PUEBLO COUNCIL OF 
                           GOVERNORS

    Mr. Torres. [Greeting in native language.] Good afternoon, 
Chairman Hoeven, Vice Chairman Udall and members of the 
Committee.
    Thank you for this opportunity to testify. My name is Paul 
Torres. I am the Chairman of the All Pueblo Council of 
Governors in New Mexico, consisting of 20 Pueblos, 19 in New 
Mexico and 1 from Texas. I have also served as Governor for the 
Pueblo of Isleta for two terms.
    My oral testimony will focus on three APCG priority issues 
for the Trump Administration. One is tribal consultation; two, 
the Federal Indian budget; and three, Indian health care.
    The Federal Government's trust responsibility to tribes is 
fulfilled, in part, by regular, direct and meaningful tribal 
consultation. Such consultation provides tribal leaders with an 
opportunity to educate Federal officials on the impact of 
Federal actions on tribal communities. Meaningful consultation 
means tribal consent for Federal actions that could 
significantly impact tribal interests. Without a consent 
requirement, too many Federal officials simply check the box of 
tribal consultation with terrible consequences for tribes and 
the Nation.
    We urge the Trump Administration to reaffirm the practice 
of meaningful government-to-government consultation and to 
continue the White House Tribal Nations Conference so the 
President can hear firsthand from tribal leaders on a regular 
basis. Because of the Federal Government's trust 
responsibility, which arises out of a long and at times 
tortured history between indigenous tribal governments and the 
United States, both Congress and the Executive Branch are 
obligated to protect the interests of Indian tribes and 
communities.
    Much of that obligation is reflected in the Federal budget 
which supports tribal governments and funds education, health 
care, public safety, transportation and economic development 
initiatives on Pueblo and tribal lands.
    The across-the-board cuts to non-defense discretionary 
spending proposed by the Administration are alarming. Just like 
sequestration, these cuts would hurt the Pueblo severely. The 
majority of the Federal programs in Pueblo Country are 
underfunded, discretionary in nature and not exempt from the 
President's plan. Pueblos are more severely impacted by Federal 
budget cuts than most other communities.
    Congress did not confine funding for Pueblo programs to the 
Department of the Interior and the Bureau of Indian Affairs. 
Congress embedded significant funding in the EPA, the Forest 
Service, the USDA, Energy, Education, Health and Human 
Services, Commerce, Housing and Urban Development and other 
agencies. Budget cuts to these departments therefore post an 
immediate negative impact and unacceptable risk to the health, 
safety and welfare of our people and our lands.
    We urge the Trump Administration and the Congress to exempt 
Indian Country programs from any proposed budget cuts or 
sequestration to avoid a disproportionate impact on Pueblos and 
other tribes. Instead, we ask that you increase resources to 
historically under-funded programs like those dealing with 
health, education and housing. We also support a budgeting 
process that allocates Federal funds based on need rather than 
a specific formula. Such an approach would assure that each 
Pueblo and tribe, without regard to size or land area, would 
receive the funding support that it needs.
    The Indian Health Care Improvement Act is one part of the 
Affordable Care Act, although it was developed independently. 
Any revision to the Affordable Care Act we ask and the trust 
responsibility requires that the Indian Health Care Improvement 
Act be protected and not repealed.
    In addition to the Indian Health Care Improvement Act, the 
ACA also contains several other Indian-specific provisions that 
directly relate to Indian health including Medicare, Part B 
billing, tax exclusions for Indian health benefits, and payer 
of last resort provisions. These provisions are crucial in 
supporting access and delivery of quality health care services 
in Indian Country and should be protected all the time.
    Pueblo leaders are also concerned about congressional 
proposals to sunset Medicaid expansion which has been 
critically important to Indian Health Service and tribally-run 
facilities. Medicaid expansion should be maintained in States 
that have chosen to participate and expanded to others within 
Indian Country.
    Thank you, Mr. Chairman and members of the Committee, for 
the opportunity to testify on these complex and critical 
issues. We look forward to working with you and the new 
Administration on advancing these and other priorities for 
Pueblo Country.
    [Phrase in native language.]
    [The prepared statement of Mr. Torres follows:]

Prepared Statement of Hon. Paul Torres, Chairman, All Pueblo Council of 
                               Governors
    Thank you Chairman Hoeven, Vice Chairman Udall, and members of the 
Committee for this opportunity to provide testimony on Identifying 
Indian Affairs priorities for the Trump Administration. The All Pueblo 
Council of Governors in New Mexico thank you for your dedicated work as 
champions of Indian Country in the United States Senate.
    My name is Paul Torres and I am the Chairman of the All Pueblo 
Council of Governors (APCG), which is comprised of tribal leaders 
(Governors) from the 19 New Mexico Pueblos and the Pueblo of Ysleta Del 
Sur in El Paso, Texas. I also serve as the Governor of the Isleta 
Pueblo. The APCG is the oldest Native American group of tribal leaders, 
constituted and formed in 1598. Collectively, the leadership of the 
APCG is respectful of the historic relationship between the Pueblos and 
the U.S. Government. In the spirit of cooperation, based on respect and 
full consideration of the sovereign status of tribes, the leadership of 
the Pueblos wishes to establish a meaningful relationship with the new 
Administration. In order to maintain trust and good will, the All 
Pueblo Council of Governors offer these statements of concern and 
policy considerations for the benefit of the Trump Administration.
Introduction
    The history of the Pueblos has its beginnings over 10,000 years 
ago. Many still occupy their traditional homelands, with their original 
governmental structures sound, their languages, ceremonies, and their 
belief systems still intact. They have a long and varied history 
dealing with foreign governments such as Spain and Mexico. Unlike other 
tribes in the United States, Pueblo land status is unique and falls 
under the 1848 Treaty of Guadalupe Hidalgo, 9 Stat. 922 (1948). The 
leadership of the All Pueblo Council of Governors stands committed to 
strengthening their relationship with the United States Government. We 
look forward to working with the new Administration to collectively 
tailor an approach that recognizes and acknowledges tribal sovereignty, 
assures a continuous government to government relationship, allows 
tribal economies to achieve their full economic potential, is 
respectful of traditional belief systems and draws on the intellectual 
capacity, talent and contributions of Pueblo People to the growth and 
development of this great country.
1. Government-to-Government Consultation
    The U.S. Constitution acknowledges that Indian Nations, Tribes, and 
Pueblos are separate distinct governments within our federalist system. 
The historic roots of the government-to-government relationship between 
the Pueblos and the United States Federal Government are symbolically 
embodied in the ``Lincoln Canes.'' President Lincoln gifted the canes 
to the Pueblos in 1863 as a formal acknowledgement of their inherent 
right to self-governance. Passed down through the generations, the 
canes serve as revered symbols of tribal sovereignty, governing power, 
and authority over tribal land, natural resources, and residents.
    Establishing a strong Federal Government-to-government relationship 
with all tribes was formalized in modern times by a number of 
Republican Presidents including President Nixon, who supported and 
signed off on major Native American legislation, and President Ronald 
Reagan through his Native American policy positions. Presidents George 
W. Bush and his father George H.W. Bush affirmed government-to-
government consultation requirements.
    Of critical importance are long-standing Executive Orders requiring 
regular and meaningful consultation between the Administration and all 
federally recognized tribes on matters that have tribal implications. 
The Executive Orders on consultation seek to ensure respect for and the 
strengthening of the tribal-federal relationship, and to reduce the 
imposition of unfunded federal mandates upon Indian tribes. These 
orders require federal agencies to meaningfully consult with Indian 
tribes prior to formulating policies that could affect tribal 
governments or tribal communities. These Executive Orders have provided 
the Pueblos opportunities for dialogue with federal agencies on issues 
that directly affect tribal communities and are pertinent to the 
Federal Government's trust responsibility--a legal and moral obligation 
by the Federal Government to tribes. While not perfect, the 
consultation process is key to forging a strong government-to-
government relationship. We urge the Trump Administration to reaffirm 
and strengthen the practice of meaningful tribal consultation and 
communication long carried out by prior administrations and Presidents 
intent on recognizing and respecting the American Indian and Alaska 
Native people of America.
2. Federal Trust Responsibility--an Obligation to Indian Tribes
    The United States Constitution, treaties, federal statutes, 
executive orders, Supreme Court precedent, and other agreements set 
forth the federal government's recognition of Indian tribes as 
sovereign nations with inherent powers of self-governance over their 
communities and tribal members. They also establish the Federal 
Government's trust responsibility to protect the interests of Indian 
tribes and communities. The federal workforce and annual budgeting 
process help fulfill these unique obligations to Indian tribes by 
carrying out the federal government's commitment to work with tribes on 
a government-to-government basis by ensuring the effective 
administration and funding of Indian Country programs.
Federal Indian Budget
    The Trump Administration recently released its budget blueprint for 
Fiscal Year 2018 in which the President proposes to cut approximately 
$54 billion in discretionary non-defense spending. These across-the-
board cuts are alarming because the majority of programs serving Indian 
Country fall under the category of discretionary spending and are not 
exempted under the President's proposed plan. These programs exist 
across the Federal Government in agencies such as the Bureau of Indian 
Affairs, Indian Health Service, Department of Agriculture, Forest 
Service, and the Environmental Protection Agency, among many others. 
Budget cuts to these programs pose an immediate and unacceptable risk 
to the health, safety, and welfare of our people, lands, and natural 
resources. When combined with the fact that Indian tribes are more 
reliant on federal funds than most other communities, it becomes clear 
that any comprehensive cuts to the federal budget without specific 
carve-outs for Indian Country programs will necessarily have a 
disproportionate impact on tribes. We, therefore, urge the Trump 
Administration to exempt Indian Country programs from any proposed 
budget cuts to fulfill the federal government's trust obligations to 
Indian tribes.
    Providing sufficient federal funding to meet the critical needs in 
Indian Country is a chronic and well-documented challenge. The Pueblos 
support a budgeting process that allocates federal funds based on need, 
rather than a specific formula. Such an approach would be responsive to 
the range of needs and internal capacities of federal agencies 
administering Indian programs. Needs-based federal funding also would 
provide agencies such as the Indian Health Service, Bureau of Indian 
Affairs, and the Bureau of Indian Education with the resources 
necessary to begin to recover from years of underfunding and program 
cuts.
Federal Hiring Freeze and Proposed Workforce Reduction
    Endemic vacancies in the workforce pose a constant challenge to 
federal programs serving the complex needs of Indian Country. The 
Indian Health Service, in particular, struggles to recruit and retain 
qualified medical and administrative staff at its facilities, despite 
the continual increases in the number of Native patients using their 
services. The federal hiring freeze and proposed federal workforce 
reduction threaten to severely diminish the already strained ability of 
these programs to provide high quality services to our people--services 
that the Federal Government is obligated to provide as part of its 
treaty and trust responsibilities to Indian tribes. The Pueblos, 
therefore, urge the Trump Administration to adopt measures that ensure 
the federal hiring freeze and proposed federal workforce reduction will 
not apply to programs serving Indian tribes.
3. Infrastructure--a Requirement for Economic Advancement
Deficiencies in Infrastructure Limit Development and Housing 
        Opportunities
    Many Pueblos are economically distressed rural communities. 
Infrastructure development is key to developing, diversifying, and 
sustaining tribal and rural economies. However, most tribal lands have 
conditions that require intense overhauling--roads are often 
unimproved, utilities are insufficient, and Internet and broadband 
barely exists. In addition, other types of infrastructure critical to 
creating vibrant tribal communities, including residential 
construction, are deficient or lacking. The result is a severe housing 
shortage on tribal lands.
Limited Access to Capital Restricts Economic Development
    Tribal business transactions have become increasingly sophisticated 
and often involve non-native partners, investors, and lenders. However, 
limited access to capital and financing remains one of the most 
significant barriers to Pueblo economic development. Tribes across the 
country spend an incredible amount of time and resources defining, 
developing, and defending programs, but programs alone do not transform 
economies and communities the way economic investment does. It is 
important to create investment funds, resources, and models that are 
mutually advantageous to tribes and investors for economic advancement, 
stability and diversification. The opportunity for a decent income, a 
desirable job, a comfortable living and a chance to provide for family 
is a desire of all Americans.
Build-Out of Digital Infrastructure Can Bridge the Urban-Rural Divide
    In this modern technological age, a great digital divide exists and 
needs to be filled in order for tribal governments to function, for 
schools to provide sound educational opportunities, and for tribal 
communities to maintain consistent communication beyond tribal 
boundaries by acquiring technological information, data and research. 
Digital infrastructure allows remote access to high school, secondary 
and post-secondary education on-line courses, as well as medical care 
technology, which may otherwise be difficult, if not impossible, to 
access in many rural communities. Better access to digital 
infrastructure such as broadband, Internet services, and digital 
platforms, is also essential for business development, which will be 
key for economic participation and competition by the Pueblos.
The Pueblos are Major Contributors to the Southwest Economy
    Pueblo governments and Pueblo owned business enterprises are 
collectively among the largest employers in the state, providing 
thousands of jobs in many rural areas of New Mexico. Most recent job 
figures put the number of jobs provided by tribal governments and 
enterprises at nearly 18,000 statewide in various industries. Non-
Indians hold nearly 75 percent of these jobs. Some of the Pueblos have 
become regional economic engines. In the case of most tribal 
enterprises, these jobs stay in the community. Many tribal members also 
spend their money off reservation, pay federal taxes, and in many 
instances pay other taxes such as property and state income taxes. 
Pueblo members engaged in off-reservation commerce also pay gross 
receipts and other taxes. All this contributes to tribal, state and 
local economies. The Pueblos struggle with uniquely burdensome federal 
restrictions and regulations, poor infrastructure and other challenges 
that limit their economies from flourishing. Pueblo leadership, 
therefore, places a high priority on economic development and 
diversification and the creation of well-paying sustainable jobs for 
our people.
Tax Policy
    Pueblos are functioning governments with a unique place in the 
federal legal system. This causes complications, not the least of which 
occur in the tax arena. Any legislation addressing tax reform should 
address these issues by clarifying how tribal governments will be 
treated, thereby eliminating the disparate treatment of tribal 
governments and reducing confusion.
What the Pueblos Support
    In order to continue and enhance their contribution to the tribal, 
state and national economic landscape, the Pueblos support 
infrastructure and tax reform such as: funding for on-reservation 
infrastructure projects that promote sustainable job creation 
initiatives and that attract investment to Indian Country; strengthened 
housing for Pueblo communities provided under the Native American 
Housing and Self Determination Act of 1996; the provision of direct 
access to federal Low Income Housing Tax Credits; clarification of the 
treatment of Indian tribes and Pueblos as other governments for 
purposes of federal tax provisions such as tax-exempt bonds, pensions, 
charities, the child adoption tax credit and other provisions; and tax 
and infrastructure policies that encourage investment on tribal lands.
4. Ensure Affordable, Accessible Quality Healthcare
    Native Americans have some of the worst health statistics in the 
country. The Indian Health Service (IHS) is the primary source of 
healthcare for Native Americans. However, the IHS has never been fully 
funded, and as a result, services are rationed, limited, inconsistent, 
unreliable and sometimes taken at ``your own risk.'' In addition, many 
tribes now pursue P.L. 93-638 contracting and/or compacting of services 
from IHS. This trend is an indicator that tribes believe healthcare can 
be better provided by other delivery mechanisms in addition to IHS. To 
promote and provide reliable and quality health system and services, it 
will be important for this Administration to develop policies that 
significantly improve the IHS budget and also allow for other forms of 
healthcare delivery to tribal communities.
Preserve the Indian Health Care Improvement Act
    The Indian Health Care Improvement Act (IHCIA) provides the basic 
program, structure, management, and budget formulation for the Indian 
Health Service (IHS). The IHCIA was permanently enacted by cross 
reference in Section 10221 of the Affordable Care Act (ACA). Although 
the ACA was the legislative vehicle through which the IHCIA 
reauthorization was passed, the IHCIA predates and is independent from 
the ACA. Woven throughout the ACA are other provisions that directly 
pertain to Indian health, including Medicare Part B billing (Section 
2902), tax exclusions for Indian health benefits (Section 9021), and 
payer of last resort provisions for Indian health programs (Section 
2901). The IHCIA also allows IHS and tribal health programs to collect 
Medicare and Medicaid reimbursements for services provided to Native 
patients at non-IHS facilities. Because the IHS has been historically 
underfunded at only 43 percent of need, these third-party payments are 
a critical source of supplementary financial assistance for the 
delivery of Indian healthcare services. The Pueblos urge the Trump 
Administration to preserve the IHCIA and protect Indian-specific 
provisions of the ACA in the course of any effort to repeal or amend 
the ACA.
Maintain Medicaid Expansion to Protect Indian Health Benefits
    Pueblo leaders are concerned that a number of the ACA-related 
proposals would sunset Medicaid expansion, which has provided 
desperately needed funding to supplement woefully underfunded Indian 
healthcare providers, including IHS and tribally-run facilities. Due to 
funding limitations, many IHS facilities have had to reduce direct 
access to specialty care providers, intensive care, inpatient care, and 
emergency room services. Medicaid expansion and Marketplace coverage 
allow Native patients to access these services at private or non-IHS 
facilities at reduced cost. The Pueblos urge Congress to maintain 
increased patient access to critical services through Medicaid 
expansion.
    Additional congressional proposals would cap Medicaid funding by 
moving to a block grant or per capita allocation formula rather than a 
Federal Medical Assistance Percentage (FMAP) formula, which could 
transfer or shift Medicaid funding responsibilities from the federal 
government to state Medicaid programs. Under FMAP, the federal 
government covers 100 percent of Medicaid costs for Medicaid-eligible 
services ``received through'' an IHS or tribal healthcare facility, 
including through the Purchased/Referred Care (PRC) system. The 100 
percent FMAP program alleviates state costs associated with the 
provision of Medicaid services, helps tribes with service delivery and 
data collection management, and improves patient access to critical 
care.
    The increase in reimbursements through Medicaid expansion has 
strengthened the internal capacity of our Pueblos to meet the 
healthcare needs of communities. For example, Santo Domingo Pueblo has 
expanded access to diabetes care, dental health programs, and 
behavioral health services, while also adding over thirty employees to 
the local workforce. Taos Pueblo also recently opened a residential 
substance abuse and mental health treatment center focused on the needs 
of Native youth, and the Pueblo of Jemez Comprehensive Health Center 
was designated as a full-service Federally Qualified Health Center 
(FQHC) capable of receiving special Medicare and Medicaid 
reimbursement. The Pueblos urge Congress to maintain Medicaid expansion 
in those states that have chosen to participate to protect Indian 
health benefits and advance the delivery of desperately needed services 
in Indian Country.
Exempt the IHS from Federal Budget Sequestration
    Access to and the delivery of quality healthcare in Indian Country 
is further complicated by annual cuts to the IHS budget due to 
sequestration. All other critical healthcare agencies, such as Veterans 
Affairs, were exempt from the full effect of funding reductions during 
the federal budget sequestration of 2013--except for the IHS. The 
disruption in federal funding has resulted in a loss of over $219 
million and counting from the IHS budget. This translates into 
immediate and long-lasting negative health impacts through lost 
resources for primary and preventative healthcare services, staff 
recruitment and training, and other programs serving our communities. 
The Pueblos recommend that the IHS be given parity with other 
healthcare agencies through an exemption from sequestration, as well as 
any freezes of the federal budget.
What the Pueblos Support
    The Pueblos understand that the new Administration has made it a 
priority to repeal and replace the ACA to revise its terms and improve 
affordability. However, they caution that repealing or amending the ACA 
might do unintentional but catastrophic harm to Indian healthcare 
delivery and access. To this end, the Pueblos respectfully request the 
Administration to exempt the Indian Health Care Improvement Act 
Reauthorization of 2010 from repeal efforts, preserve Indian-specific 
provisions of the ACA, consider Indian health care programs and 
services as mandatory spending programs, and exempt them from the 
potential return of sequestration to the federal budget, and to 
consider funding increases to Indian health programs and services and 
policy initiatives that provide alternatives for quality health care.
5. Land Base, Water and Natural Resources--Important Tribal Assets
Continuation of the Land-into-Trust Program
    As sovereign tribal nations, the Pueblos exercise an inherent right 
to self-governance that is strengthened by our ancestral connections 
with the land. The ability of the federal government to take land into 
trust on behalf of tribes is, therefore, essential to our self-
determination. Trust lands enable us to provide a homeland for our 
people as well as a base from which to offer essential governmental 
services, such as, housing, education, healthcare, and economic 
development opportunities. Trust lands also facilitate the expression 
of our identity as Pueblo people by protecting the natural and cultural 
resources that form the bedrock of our traditional practices. We urge 
the new Administration to continue to support the land-into-trust 
program as a means of strengthening tribal governments, economies, and 
communities across our great country.
Wise Stewardship of Natural Resources
    The stewardship of land, minerals, water and other natural 
resources is key to both the economic well-being of Pueblo people and 
to their cultural survival. Every day the Pueblos strive to balance 
these interests.
    The vast majority of federal lands are carved out of the ancestral 
homelands of Indian tribes. The historical and spiritual connection of 
tribes to federal lands was never extinguished. Courts acknowledge that 
Indian tribes retain rights to hunt, fish, and gather on federal lands. 
Federal laws acknowledge the continued right of tribes to access 
federal lands to pray, conduct ceremonies, and gather medicinal plants. 
Federal laws and executive orders also require federal land managers to 
consult with tribal governments prior to taking action that would 
affect the integrity of federal lands. For example, the Pueblo of 
Laguna is working with the Department of Agriculture and the Forest 
Service as a Cooperating Agency in the preparation of an Environmental 
Impact Statement for the Cibola National Forest Plan Revision. Such 
beneficial partnerships better ensure that tribal interests are taken 
into consideration in the development of the federal land resource and 
management plans.
    The Pueblos ask the Trump Administration to partner with them in 
strengthening these rights and access to ancestral homelands and sacred 
places located on federal lands. If the Administration considers 
transferring lands out of federal control, we respectfully ask that the 
Pueblos be provided the right of first refusal to ancestral homelands 
and sacred places. Pueblos and other tribes are proven stewards and 
managers of their lands and forests. Protection of and access to 
natural resources is important not only to the Pueblos but to all 
Americans.
Affirming Tribal Water Rights and Water Quality
    The Pueblos have been engaged in major court battles to secure 
tribal water rights as provided under federal law. The federal 
government must remain committed to supporting tribal water claims. 
Pueblo water rights are not mere claims on paper, but reflect a long 
term, historic Pueblo presence, cultural identity and willingness and 
desire to live on their traditional, ancestral lands. The settlement of 
these rights also provides stability and economic benefits to 
surrounding communities. For these reasons, water, land and air must 
remain protected from contamination that results from mining and 
extraction activity including uranium mining, oil and gas production 
and transportation. All such activity that would affect tribal 
interests should be advanced only with tribal consultation and consent.
Preservation of Bears Ears National Monument
    In keeping with our traditional role as stewards of the land, the 
All Pueblo Council of Governors has worked closely with federal, state, 
and local governments to protect important landscapes and cultural 
sites in the southwest, including the area now known as the Bears Ears 
National Monument in Utah. Our ancestral ties to the Bears Ears 
cultural landscape extend to time immemorial and can be traced through 
the ancient roads, dwellings, petroglyphs, and ceremonial features that 
continue to enrich the region today. However, these sites are under 
constant threat by erosion, vandalism, looting, and indiscriminate 
damage through off-road vehicle use, as well as the general degradation 
of wildlife and plant habitats that are significant to our traditional 
practices. We urge the Trump Administration to preserve the designation 
of Bears Ears as a National Monument to support the permanent, long-
term protection of the land and its invaluable cultural and natural 
resources.
Protecting Tribal Cultural Patrimony
    Disturbing and unsettling occurrences at national and international 
auction houses as well as in the art world have led to outrage and 
condemnation by many tribes throughout the United States, including the 
Pueblos. These occurrences include the illegal trafficking in and the 
selling of Native American cultural property--items considered sacred, 
sacrosanct, used in worship, and should never to be given away or sold. 
These items are not works of art; they are integral parts of a Pueblo's 
living cultural identity and spiritual practices.
    We remain grateful to the leadership of the Senate Indian Affairs 
Committee for your support of the PROTECT Patrimony Resolution, H. Con. 
Res. 122 (Dec. 2016). The Resolution puts in place greater deterrents 
to prevent the theft and illegal trafficking of our sacred items, both 
domestically and abroad, and promotes the protection of our identities 
as Pueblo People by better ensuring that items of cultural patrimony 
remain within our communities. However, a significant amount of work 
remains to be done on this important issue. We look forward to working 
with you and the Trump Administration on strengthening the 
implementation of the Native American Graves Protection and 
Repatriation Act (NAGPRA), and advancing the Safeguard Tribal 
Objectives of Patrimony Act (STOP Act) during the 115th Congress.
What the Pueblos Support
    In the Pueblo worldview, we are stewards of the earth's natural 
resources--land, water, air, and minerals. The Pueblos support policy 
and legislation that provide protection of natural resources, includes 
funding to support management of these resources, and policy that 
requires Federal-Tribal collaboration when natural resources and 
cultural properties are affected in any way. The Pueblos support a 
policy that requires in-depth collaborative efforts to arrive at mutual 
outcomes where natural resources on or near tribal lands could be 
destroyed or diminished. In addition, the Pueblos seek support for 
pending federal legislation that would clarify existing laws and 
condemn the trafficking of sacred items. The Pueblo leadership asks the 
new Administration to support Congressional proposals to protect 
cultural patrimony.
6. Pueblo Destiny Lies in the Control of Education
High Standards Are Critical
    Pueblo leaders wish to create a highly skilled, well-educated, 
workforce within their respective tribal communities. With a pool of 
qualified workers, the Pueblos believe they will be able to attract 
business and economic development possibilities, create well paying job 
opportunities, and assure that tribal members enjoy a prosperous future 
that comes with being well educated.
Education System
    The Pueblos of New Mexico have always supported sound educational 
programs that comply with state and federal accountability standards. 
We emphasize the importance of high quality instruction, effective 
professional teacher development and the development of appropriate, 
culturally sensitive curriculum, including Native language retention 
and instruction. In addition, Pueblo leaders support comprehensive 
oversight of the flow of funds and the implementation of policies that 
effectuate meaningful educational change. It is important to foster the 
advancement of higher education, but also to consider re-introducing 
vocational education, which in many school districts has been 
eliminated or severely limited. Vocational education can provide skills 
that contribute to employment opportunities and sustainable incomes. In 
addition, Science, Technology, Engineering and Mathematics (S.T.E.M.) 
curriculums must be incorporated into tribal school systems.
Protecting and Preserving Native Languages
    The Pueblo worldview is contained in their languages. In addition 
to maintaining tribal life ways, the Pueblos have established various 
programs and methods in order to retain and preserve what are 
considered some of the most ancient and distinct languages in America. 
Some Pueblo languages are so unique they are not spoken anywhere else 
in the world. Students in language immersion programs demonstrate 
substantial improvement in their academic performance and testing. Data 
shows that Native students excel in S.T.E.M related subjects largely 
attributable to their language skill set. Native languages offer a 
unique thought process and a way to interpret the world and its 
interactions.
What the Pueblos Support
    The Pueblo leadership supports policies that provide educational 
opportunities and resources in order to begin cultivating the next 
generation of Native students who are able to achieve academic success, 
perform proficiently on standardized tests, and graduate. A number of 
Pueblos are taking over the operation of Bureau of Indian Education 
(BIE) schools located on tribal lands. Operating and maintaining 
schools requires considerable resources. It is important that the new 
Administration provide adequate funding to support tribal schools and 
initiatives like S.T.E.M. The Pueblo leaders also urge the new 
Administration to realize the value of Native languages and support 
funding for programs that prevent the further loss of language, 
traditions, and culture.
7. Appointment of Native Americans to Key Trump Administration 
        Positions
    Pueblo governments and their communities can be severely affected 
in many different ways by the actions of the U.S. government through 
policy or the enactment of federal law. Therefore, it is extremely 
important that the voice of the 20 Pueblos be heard and considered, 
especially with regard to appointments to key positions within the 
Administration that will affect the Tribes, Pueblos and Indian Nations 
in this country. Equally important is the appointment of Native 
Americans to key positions within all federal agencies across the 
Administration. The 20 Pueblos respectfully ask that the President 
seriously consider Native American professionals for appointment to the 
following key positions:

  <bullet>  Special Advisor to the President on Native American 
        Affairs, The White House

  <bullet>  Deputy Director for Tribal Affairs in the White House 
        Office of Intergovernmental Affairs and Public Engagement

  <bullet>  Deputy Secretary, Department of the Interior (DOI)

  <bullet>  Assistant Secretary for Indian Affairs, DOI

  <bullet>  Director, Bureau of Indian Education, DOI

  <bullet>  Solicitor, Office of the Solicitor, DOI

  <bullet>  Director, Indian Health Service, HHS

  <bullet>  Director, Administration for Native Americans, HHS

    We also respectfully request that the Trump Administration maintain 
``Office of Tribal Relations''/``Native American Programs'' (OTR) 
officials in each department/agency of the government to help 
facilitate access by tribal government leaders to the federal programs 
designed to benefit tribal, state and local governments. Agencies that 
have OTRs include, among others, USDA, Justice, Commerce, Veterans 
Affairs, the EPA, Treasury, Health and Human Services, Energy, Labor 
and Homeland Security. As with the above listed positions, many 
qualified Native Americans currently serve or could serve in these 
positions.
    Finally, because federal laws and the development of federal 
jurisprudence have a disproportionate impact on the daily lives of 
Indian Country residents, we ask that the Administration make it a 
priority to strongly consider appointing Native Americans to serve as 
judges in the federal court system.
Conclusion
    Federally recognized tribal governments are and have for centuries 
been acknowledged as distinct political and sovereign entities 
recognized in the U.S. Constitution, treaties, federal laws and 
regulations, and federal court decisions. Prior to contact with other 
nations, Indian tribes exercised powers of self-government over their 
territory, residents, and visitors. Their sovereignty pre-dates the 
Constitution and is derived from the fact that they owned all the land 
that is now the United States, including the state of New Mexico. The 
U.S. Constitution acknowledges the sovereign status of Indian tribes in 
the Treaty Clause, in the 14th Amendment as ``Indians not taxed,'' and 
in the Commerce Clause. Separate sovereign tribal groups are a vital 
part of the fabric of this great nation. Working together, with a 
common understanding of history, with mutual respect and recognition of 
the obligations of the relationship forged by President Lincoln, as 
symbolized by the Lincoln Canes, and with an optimistic view of the 
future, the Pueblos look forward to successfully working with the Trump 
administration.

    Senator Barrasso. Thank you all for your testimony.
    Senator Hoeven is still voting and I understand Senator 
McCain is going to start with the questions.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman.
    Thank you all for being here. Congratulations to you, Mr. 
Secretary. Despite your poor record in the United States Navy, 
we hope you will improve in your new job. Thank you.
    Secretary Zinke. I look forward to it, sir.
    Senator McCain. Briefly, Mr. Secretary, I want to ask you a 
couple questions about the BIE school system.
    I think by any measurement they are failing. Facts are 
stubborn things as President Reagan used to say. Half of BIE 
students do not graduate high school; BIE test scores trail by 
double digits compared to Native students who attend non-BIE 
schools. Many schools struggle with teacher retention and some 
schools are unfit for human habitation.
    Let me mention a couple examples to you. One school spent 
$3.5 million on a new roof but the roof continued to leak and 
classrooms later developed mold. Another school spent $1.5 
million to build a garage for their school bus. The school bus 
did not fit.
    In Arizona alone, most of our 19 BIE schools have not been 
inspected in almost ten years. Now the BIE and BIA say they 
have inspected all the schools. BIE does not keep track of the 
money they give to tribally-operated schools.
    One school wired $1.7 million to an offshore account in a 
phishing scam and was only able to recover $500,000. Another 
school illegally loaned out $1.2 million to a non-Indian school 
district and we are now spending an estimated $15,000 per 
student per year, higher than the national average as you know.
    It is difficult to justify providing BIA with more funding 
now that GAO had deemed them a high risk agency. I would argue 
that if there is one thing we owe our Native Americans, it is 
to give their children a decent education. Statistic after 
statistic shows we are not doing that.
    I believe one of the options that ought to be examined is 
charter schools. Give parents a choice. Allow charter schools 
to have an opportunity to provide them with an option. I am not 
saying that is the answer but I am saying the status quo is not 
acceptable.
    It is a solemn treaty obligation we made that we would 
provide health and education to our Native Americans as they 
signed treaties that gave their land and their rights. I would 
hope you would give this issue some priority. It is not a new 
issue but it seems to me, from my 30 years experience on this 
Committee, that the situation is not getting any better.
    In the view of many, I think Senator Udall would agree with 
me, that the situation is getting worse. I hope you will take 
this as a priority and maybe give us a report on the fiscal 
conditions of the BIE schools in my home State for openers.
    I thank you, Mr. Chairman. I want to say congratulations, 
Mr. Secretary. I am sure you will do an outstanding job. We 
look forward to working with you.
    May I have a quick response?
    Secretary Zinke. Yes, sir. I appreciate the question.
    The GAO report, as you know, is damning. I think there are 
two sides to education. There is the infrastructure. I first 
asked, what our backlog is with infrastructure. Somewhere 
around $300 million to $400 million is our backlog on schools 
across Indian Country.
    The backlog on infrastructure is only part of the story, as 
you know. It is hard to gain economic development when you do 
not have a good school. As tribes look at opportunities, if 
they are going to bring in an opportunity in gaming, there is a 
myriad of opportunity, but it is hard to recruit talent if you 
do not have a school, a hospital or clinic that has functioning 
infrastructure.
    As you point out, infrastructure is one side of it. The 
other side is delivery of the education. Back to sovereignty, I 
think the tribes should have the latitude to decide for 
themselves what method they choose to deliver their education.
    There have been advancements in rural country on distance 
learning and computer-aided learning, the supplement in there. 
Drugs are a big issue in our schools. The kids are in the 
classroom excited. For some kids, the standard course of 
instruction does not work or does not reach them.
    Having some flexibility given back to the tribes on what 
delivery method is appropriate to the culture I think is a 
giant step forward.
    Senator McCain. Thank you, Mr. Secretary. I hope we would 
encourage the Native Americans who exercise tribal sovereignty 
to make additional choices as to how they can best educate 
their students and convey those desires to you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator McCain.
    Senator Udall?
    Senator Udall. Thank you, Senator Barrasso.
    Senator McCain, you are right. We must do better with BIE 
students. We are not doing nearly the kind of effort we need 
to. I think what I hear from Secretary Zinke is he has a 
commitment to do that.
    Secretary Zinke, you and your agency are responsible for 
upholding the Federal Government's trust responsibilities. 
Speaking of trust responsibility, I would like to follow up on 
an issue I personally raised to you during our meeting in 
January, and also in a letter I sent to you shortly after you 
were sworn in last week.
    Chaco Culture National Historic Park in Northwest New 
Mexico and its surrounding area holds enormous significance to 
the tribes in that area. However, Chaco is also in the middle 
of one of the most productive oil and gas regions in the 
Country.
    The expanded development in the area is causing great 
public and tribal concern. As I noted in our meeting, former 
DOI Deputy Secretary Mike Connor and I visited Chaco in 2015 to 
witness the situation and to discuss next steps.
    Following that visit, Deputy Secretary Connor announced a 
unique, I think first of its kind, joint effort between BLM and 
BIA to work collaboratively to increase meaningful consultation 
with tribal communities as part of the ongoing resource 
management plan revision.
    Given the importance of this area to tribal heritage, it is 
essential to have tribal input in the future planning for this 
area. As a result, it is equally important for BLM and BIA to 
work collaboratively.
    Will you ensure this ongoing joint effort between BIA and 
BLM continues so that we strike a balance between adequately 
protecting Chaco and allowing for responsible development and, 
above all, ensure that tribes are intimately involved in the 
process thus minimizing the potential for future disagreement?
    Secretary Zinke. Thank you for the question.
    The heart of it is consultation which was mentioned before. 
Consultation has been inconsistent at best. Across Interior, we 
have to make sure we have a policy in place so that 
consultation takes place.
    The definition of consultation between our different 
departments, in some cases, we have not worked well between BLM 
or Fish and Wildlife or the National Park Service. It has been 
inconsistent with our consultation process.
    I will commit to working together and continue that but we 
also have to continue to improve what the consultation is so 
there is an expectation among peers as you enter the 
consultation processes, making sure we have set the right and 
left flank and we know what the expectation is so the 
consultations are meaningful within the process.
    Senator Udall. Thank you very much for that answer.
    As you know, after some of the incidents at the Dakota 
access pipeline, President Obama asked for consultation 
nationwide with tribes. We had a session in Albuquerque. As a 
result of all those nationwide sessions, a report was issued in 
January 2017 entitled Improving Tribal Consultation and Tribal 
Involvement in Federal Infrastructure Decisions.
    That report set forth important guidance and 
recommendations regarding the Federal Government's commitment 
to engage tribes on a government-to-government basis. Will you 
consider and take up the recommendations made in that report?
    Secretary Zinke. I have that report on my desk and that is 
going to be my nightly reading for a while. I think it is 
important that we all agree. This will also take consultation 
to make sure we come up with a document that meets expectations 
on all sides.
    Those recommendations, no doubt, will be incorporated into 
what we believe will be our product and we will take it into 
consideration. Also, that document was limited in scope and who 
got to look at it.
    On the issues of sovereignty and consultation, a challenge 
is that not every tribe has the same aspirations and goals. We 
have to work through that in a prudent and timely fashion to 
get a product that is acceptable to the Nations.
    Senator Udall. I appreciate that answer.
    Chairman Torres, as you know, President Trump has announced 
a hiring freeze. Could you talk a little bit in the limited 
time left as to how you think that hiring freeze could impact 
your Pueblo and the other Pueblos in New Mexico that you 
represent as chairman?
    Mr. Torres. Thank you for that question, Mr. Vice Chairman.
    The hiring freeze that has been proposed is going to be 
very detrimental not only to the Isleta Pueblo but to the other 
Pueblos. I will give you an example.
    The tribal leaders, not only from the Pueblos but the 
Nation, come to D.C. requesting or complaining about a lot of 
things that do not happen, that the BIA does not do, or other 
programs do not do. For example, Isleta Pueblo took in 90,000 
acres of land to trust last year. It took us 18 years to get 
that land into trust. The ball was in the hands of the BIA but 
it took 18 years to get it done. We finally got it done last 
year. The Secretary of the Interior went to Isleta and 
celebrated with us. It was a great day. That is just one 
example.
    BIA does not have enough employees to get work done in the 
first place. If we lose approximately 4 percent of the 
employees in any Federal agency due to retirement or whatever, 
in a matter of just a few years, you are not going to have very 
many employees left. For sure nothing will get done at that 
time.
    It is serious enough right now. It is not good to have a 
freeze on the programs that affect the Indian tribes. It is not 
going to be a good thing for us.
    Senator Udall. I hope we exempt the Interior Department and 
these BIA activities.
    Mr. Torres. Yes.
    Senator Udall. Thank you for that answer.
    Mr. Chairman, back to you.
    The Chairman. [Presiding.] Thank you, Vice Chairman.
    I think we will go to three-minute rounds with the 
Secretary because I understand that you have to leave. Now they 
are telling me you have to leave at 3:35 p.m. I am going to try 
to stretch them to 3:40 p.m. per original agreement. I will 
start and we will go to three minute rounds to get as many 
people as we can.
    The first question I would like to begin with, and I have 
two, is at IHS, I think there is so much more we can do with 
strong leadership and really make a meaningful difference in 
Indian Country in terms of taking care of people and their 
health.
    IHS is turning back money at the same time when there are 
tremendous needs out there in terms of health care on the 
reservation.
    What can we do to work together to make sure we get really 
strong leadership in Indian health services and really go to 
work to do a better job of delivering health care services 
across Indian Country?
    Secretary Zinke. A great question and I agree with you. In 
my experience in Montana, I had not visited a lot of tribes 
outside of our State, but I think Indian health care is at rock 
bottom in some places.
    Some of it is inconsistency; some is the more rural you 
become, there are less choices. Even the physicians do not have 
the flexibility when they see a patient. They sent them out. 
They had to go through layers of bureaucracy for approval. It 
gets worse as you go out into some of the more rural areas.
    As we all know, the Obamacare refit, repeal, reform, 
whatever we are going to call it, affects Indian health. Like 
you, we saw the first version out of the House. I have an 
appointment to talk to the Secretary on it to make sure that we 
do not forget the other side of it.
    The other side of it is those of us in Congress saw how it 
was done the last time. I think maybe we can learn some lessons 
going forward in taking into consideration how it affects the 
tribes and their health care.
    Hopefully, we can work together to make sure how the 
choices are delivered, again sovereignty should mean something. 
If the tribes are in a position to do more and have more 
choice, then great. It is really up to the tribes and they 
should have a stronger voice on how their services should be 
delivered.
    Some of it is infrastructure too. I go back to it is hard 
to recruit good physicians, good physician assistants if you do 
not have a community that has a good school. It is also hard to 
develop some of the technology that we are witnessing in remote 
care if you do not have the right pipes, right services and 
broadband to deliver that.
    There is a lot in there but I think we have to work 
together as far as the branches of government to make sure the 
tribes are not forgotten.
    The Chairman. Again, I would just ask that you work with us 
on finding strong leadership at IHS. As you said, I think 
rightly so, we work to make sure that we empower tribes to 
really work with IHS, cut through the regulatory red tape and 
make sure that service is being delivered as well as possible.
    Obviously right now, I am emphasizing health care but I 
think that extends across a whole range of opportunities 
whether it is making sure children are protected, economic 
development, or trying to work with the BIA to reduce crime on 
the reservation and make people safer.
    I think in all those areas, it is both self empowerment and 
then cutting down on some of the bureaucratic difficulties and 
delays. I think that is where your leadership and your desire 
to reform and reorganize can really make a big difference, Mr. 
Secretary.
    Secretary Zinke. Thank you, sir.
    The Chairman. With that, I will turn to Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Secretary Zinke, welcome.
    Staying on health care for a second, when we had 
sequestration cuts, for a while the Indian Health Service 
benefits were not excluded like Medicaid and Medicare. Several 
members of this Committee, Senator Murkowski, myself and 
others, raised the warning flag until people understood that 
those were sacrosanct.
    Now, when you look at this budget proposal, if you do the 
math, there could be a 13 percent cut in Indian Country if you 
take what the news accounts are. That would be like three times 
what we faced in sequestration.
    I hear what you are saying. You are going to go over and 
talk to people. How can we make sure that we are not going to 
see these draconian cuts in health care?
    Secretary Zinke. Some of it is why the costs and what can 
we do? Outside of budget, what can we do on the regulation side 
to help us save? What can we do to provide more flexibility? 
What can we do to provide more choice to some of the tribes?
    The goal is the same. The goal is affordable, reliable 
access to health care. Not all of it is budget as was pointed 
out. In some places, money is being given back or not spent in 
the right way.
    Some of it is risk on giving the tribes more ability to 
make the choices and accept that perhaps the way they spend it 
is not going to be exactly the way Washington or the Secretary 
thinks because one size does not fit all.
    Senator Cantwell. On that, I look at Medicaid and Medicare 
just as I look at the trust responsibility. We have to live up 
to that responsibility. I hope you will be able to convince 
those at OMB and the White House that is what trust 
responsibility actually means. I wish you success on that.
    If I could, I wanted to also ask you about BAER funding 
which is burned area emergency funds. We had a great deal of 
the Colville Reservation burned. Part of the available funds 
through you is to help replant these tribal areas.
    I want to see if we can get you to commit to working with 
us on that and getting some help for the Colville Tribe?
    Secretary Zinke. Absolutely. I can also share my commitment 
to wildfire as far as removing dead and dying trees. We had 
talked about this before. A lot of catastrophic fires in the 
West have been because we have a lot of dead and dying trees 
that are burning there.
    We have to spend money making sure that our forests are 
healthy up front so we do not have to spend the catastrophic 
money, $2 billion or so, fighting forest fires recently in a 
year. In such cases where we have had these catastrophic events 
by fire, it is better to spend the money up front in prevention 
where we can. Then we do have to replant and reclamation across 
the board has been an issue.
    Senator Cantwell. I think you will find many people unified 
here on the Committee on what we should do on fire. I think we 
have to convince some other people on the other side of the 
Capitol that it is an important to deal with.
    Thank you very much for your commitment to work with the 
Colville.
    The Chairman. Senator Moran, I would ask you to go two 
minutes if you would, because I am trying to get everyone in 
before the Secretary leaves.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Secretary, thank you very much and the 
tribal leaders who have joined us here today.
    The shortened version of my questions are first, let me 
thank you for sponsoring in the House the Tribal Labor 
Sovereignty Act. A number of the leaders here in their 
testimony have expressed their support. I am humbled by that.
    I would ask you to commit that you will work with us if 
that legislation passes the House and Senate to see it is 
supported by the Administration and becomes law.
    Secretary Zinke. Absolutely, sir, I was glad to sponsor it 
and I look forward to it passing.
    Senator Moran. Thank you, very much.
    The last Administration emphasized a focus on restoring 
tribal homelands through the land into trust process. Acquiring 
land in trust facilitates self determination. Will this 
Administration have a similar emphasis?
    Secretary Zinke. I think you have to look case by case at 
what lands are appropriate and do we have the right assets as 
you bring land into trust? What does that mean in the long 
term? Some areas are better in fee; some areas are better 
managed.
    As far as moving forward, there are going to be a lot of 
applications as there are now to bring it back. We have a 
process. I will work with you to make sure the process is 
transparent, clear and at the end of the day, results in an end 
product that is where we all want to be.
    Senator Moran. Mr. Secretary, Haskell Indian Nation's 
university is one of two four-year institutions operated by the 
Bureau of Education. It is located in Lawrence, Kansas.
    Our tribal colleges need significant attention. I would 
highlight this issue for you and invite you visit with me at 
Haskell University. I want to forewarn and foretell you that I 
will be knocking on your door as we look for ways to 
innovatively help tribal education certainly at this level and 
this particular university for the betterment of Indian people 
across the Nation.
    Secretary Zinke. I look forward to it.
    Senator Moran. Thank you, Mr. Secretary.
    The Chairman. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. I will make this 
quick.
    Congratulations, Secretary Zinke. You are in a position now 
that you can help the Little Shell of Montana receive 
recognition. Can I get your commitment that you will work hard 
to make that happen?
    Secretary Zinke. My position on the Little Shell has been 
supportive of it. We have a process. Now, as Secretary, I have 
to make sure that process is fair, transparent and not unduly 
influenced. I have been following your bill very, very closely 
and I hope the House accepts similar and I hope the Congress 
does it.
    Senator Tester. I am one who thinks it should be the 
Department, to be honest with you, because you will de-
politicize it. We will politicize it. If you can just show it a 
little extra attention, that is all it takes.
    Secretary Zinke. I plan that all recognition goes through 
as smoothly and expeditiously as absolutely possible.
    Senator Tester. The Little Shell is going to be glad to 
hear that.
    Consultation, it is not just with the Department of the 
Interior. In fact, I could argue the Department of the Interior 
probably does a better job than any other agency. It still 
needs improvement but it does a good job.
    I just need your commitment that you will talk to the other 
Secretaries you serve with and get a letter off to them 
explaining what consultation is so that they understand whether 
it is the Department of State or Department of Agriculture, or 
any other one, that consultation is critically important when 
it comes to Indian Country. Most of these folks do not even 
know what consultation is. You do. They do not.
    Secretary Zinke. Senator, I think that is an excellent 
idea. It will come up very shortly in order, I am sure.
    Senator Tester. Last question is on water compacts. There 
is a ton of Indian water compacts in the West. We have two in 
Montana. We have the Blackfeet that have already been 
authorized. I have the Salish Kootenai that hopefully will get 
authorized. The big problem is money. Authorization is nice. 
Without money, it cannot happen. Do you have any ideas on how 
to fund those water projects?
    Secretary Zinke. The finished compact is a treaty 
obligation.
    Senator Tester. Yes.
    Secretary Zinke. I think we should make sure that we 
emphasize that as a treaty obligation. It is not a nice to 
have; it is honoring a treaty.
    Senator Tester. Last thing, Senator Baucus and Senator 
Bingaman, Senator Udall's predecessor, both worked on using a 
fund called the Reclamation Fund over which you have some 
control. It has, I believe, north of $10 million in it now. 
That would do a lot of water projects pending out there that 
have to be done because it is a treaty obligation. Hopefully, 
you will look into that.
    Thank you, Mr. Chairman.
    The Chairman. Senator Daines.
    Senator Daines. Mr. Secretary, as a member of the U.S. 
House, you, Senator Tester and I worked together and enacted 
the historic Blackfoot Water Settlement Act into law.
    My question is, as you work to inform the Administration's 
budget request including fiscal year 2018, can I get your 
commitment to work with Congress to ensure the Blackfeet Water 
Rights Settlement receives the full funding it needs to be 
implemented?
    Secretary Zinke. I will work with you. I would say we have 
the greatest chance and opportunity because we have both sides 
in the middle. I think if we work together, we can get things 
done.
    Senator Daines. I would say we have them surrounded, Mr. 
Secretary.
    I want to shift and talk about coal jobs. We talk a lot 
about coal jobs but we cannot let these important issues go 
stale. Sometimes by repeating it over and over again, we can 
get calloused and forget these are very important issues.
    For the Crow people, coal means its livelihood. It means 
another meal on the table for struggling Native families. It is 
a lifeline in a community where the unemployment rate, as we 
head from Chairman Not Afraid, is somewhere between 25 and 47 
percent. Coal jobs have a face, a beating heart. They are the 
face and the heart of the Crow Nation.
    Secretary Zinke, can I get your commitment as Secretary of 
the Interior to work with other Federal agencies to ensure that 
coal export terminal permits are issued in a timely manner to 
protect and create jobs for the Crow people?
    Today, they have to send their coal to Canada. We cannot 
even send it through a U.S. port
    Secretary Zinke. Senator, it is enormously important, not 
only to the Crow but to the Navajo, Hopi and those resource-
dependent tribes. My commitment to you is I will work to make 
sure that sovereignty means something.
    It is up to the tribe. If the tribe wants to export their 
product, whatever that is, we should not stand in the way. On 
land treaties, we need to honor that treaty. My steadfast 
commitment is to support sovereignty so we get out of the way 
if that is the direction the tribe wants to go.
    Senator Daines. Thank you, Mr. Secretary.
    The Chairman. I am going to ask that Senator Murkowski be 
allowed to put something in the record before we go to the next 
question.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Then I will come right to you, Senator 
Franken.
    Senator Franken. Fine.
    Senator Murkowski. Thank you, Mr. Chairman.
    I would just ask that my statement be included as part of 
the record, including my comments on ANCSA contaminated lands.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Murkowski follows:]

  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator from Alaska
    Chairman Hoeven, and Vice Chairman Udall, thank you for your 
leadership in bringing the topic of priorities for the Trump 
Administration to the Indian Affairs Committee. Certainly we are all 
aware of the government-to-government and trust responsibilities that 
exist between the Federal Government and Tribes. This relationship is 
far too important to not understand and I have been saying that we need 
to make sure all nominees and incoming staff with the new 
administration must understand it.
    In fact, I have been telling all of my constituents that we should 
not assume that they know anything and it all of our jobs to educate 
each and every one on our needs, our issues, our opportunities, and our 
challenges.
    One person I do believe has a good understanding of many of the 
issues in Indian Country is the newly confirmed Secretary of Interior, 
Ryan Zinke. Secretary Zinke, I thank you for making this hearing today 
your first Congressional hearing since confirmed. I think that speaks a 
lot on your commitment to Indian Country and it goes to show that what 
you said about focusing on the challenges in Indian Country during your 
nomination process was not just rhetoric, but you meant it.
    When it comes to the Indian Affairs Committee and how we can work 
with the new administration, we start at the basics. What does it mean 
for the Federal Government to uphold its trust responsibility to tribes 
and have a true government-to-government relationship? In your 
testimony you mention, regardless of political party, this is our duty 
from Maine to Alaska. And I thank you for mentioning Alaska.
    Alaska is home to 229 federally recognized tribes. You can imagine 
the importance of the trust responsibilities and relationship with the 
Federal Government for me and my constituents. What it means is 
meaningful consultation and true relationships in decisionmaking. It 
means when an agency performs the duty of consultation they are not 
simply ``checking the box''. They are building relationships, ensuring 
tribes have a seat at the table, and that sovereignty is being 
recognized.
    One opportunity for tribes to work with the Bureau of Indian 
Affairs and other federal agencies is the annual BIA Providers 
Conference in Alaska. This conference usually takes place in Anchorage 
and last year was its 26th year. Usually attended by about 1,500 
Alaskans, this conference give tribal governments and village leaders 
the opportunity to meet with Federal representatives to learn about 
programs and how to implement them. More often than not, it is the only 
opportunity for tribes to meet face-to-face with Federal employees.
    I strongly urge you, Secretary Zinke, to continue the conference. 
But one piece of advice is I would like to see more direction taken 
from the Tribes on what is included in the agenda and hear from them on 
how the conference can be the best use of both the tribe's and agency's 
time. It takes a lot of cost, and effort for individuals to fly all the 
way to Anchorage from their remote communities, so I want to make sure 
it is worthwhile.
    Building off of that, I would like to mention briefly a few 
programs that DOI oversees which are extremely important to me and my 
constituents. One is the Small and Needy Tribes funding. This funding 
is critical for dozens of our small and remote tribes across Alaska. It 
gives them the ability to run important tribal programs, and I would 
ask you to work with me to ensure they receive the maximum benefit of 
this funding.
    We have been working with DOI on the development of Tribal Courts 
in PL280 states. In FY16 we put forward $10 million towards this 
effort. This was a huge priority of mine and was the first time we have 
ever directed funding for Tribal Courts in this way. I believe this is 
a direct investment into the health, well-being, and safety in our 
villages. At the department level there was much room for improvement 
in the rolling out the funding and plan. We must continue to improve in 
this area and push for outreach and consultation with the tribes as we 
progress. I do believe we are making progress and I ask you commit to 
working with me on that as we move towards a sustainable, long lasting 
system for tribes.
    A related subject I would ask the Trump Administration to work 
closely with me and Alaskans on is public safety. There are too many 
instances of young men, women, and children living in constant fear, in 
times they are not even able to leave their homes, because they do not 
have adequate public safety in their area. This is far too often the 
case in rural Alaska. I urge you, Secretary Zinke to work with other 
members of the Cabinet, and the members of this committee, to find ways 
where the federal government can make improvements.
    I would ask you to make a commitment at the Department to once 
again take a leadership role to facilitate the cleanup of the ANCSA 
contaminated lands. Right now there are still over 600 contaminated 
sites on land that was conveyed to Alaska Native Corporations and also 
additional sites on land pending conveyance. These sites where 
contaminated under the ownership or responsibility of the Federal 
Government, and then transferred to Native ownership. They pose a risk 
to humans, animals, and the environment. I ask that you work with the 
Alaska delegation and Alaska Native leaders to solve this overdue 
issue.
    There are certainly so many areas I would like you and the DOI to 
partner with us in Alaska. There are significant ways the DOI can help 
create jobs and economic activity in Alaska. A few are supporting the 
implantation of the Native American Tourism and Improving Visitor 
Experience Act (NATIVE Act), hiring local Alaska Natives to fill 
position in the National Park Service and Fish and Wildlife Service, or 
contracting directly with Tribes at the local level whenever possible.
    There are also larger endeavors where there is significant 
opportunity for Indian Country with larger infrastructure and tax 
reforms. We must make certain that opportunities for American Indians 
and Alaska Natives are part of any infrastructure or tax legislation 
that is put forward.
    As you can tell, we have much to work on together. And I thank all 
the witnesses, especially Secretary Zinke for taking the time to look 
through the lenses of opportunity. This committee is one where we are 
known to work together, in a bi-partisan way, and I look forward to 
continuing that tradition.
    Thank you to all members of the panel, and thank you again to 
Secretary Zinke for joining us for this oversight hearing today.

    The Chairman. Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Mr. Secretary, thanks for being here so 
early in your term. Vice Chairman Anderson, thank you for your 
friendship and all the work the Shakopee does.
    I want to talk about economic development because when we 
talk about education, health care, business, infrastructure, 
and law enforcement, it is circular.
    If you do not have the schools, if the kids do not have 
housing and are sharing housing with another family, witnessing 
trauma, that affects the educational system. If they do not 
have housing, you are not going to get good teachers or good 
doctors.
    My thing is economic development. I would like to ask you 
to work with me to fund the Tribal Energy Loan Guarantee 
Program. I think we talked about this when you came to my 
office. This was included in the Energy Policy Act of 2005 but 
was never funded.
    This program would allow the Energy Department to guarantee 
up to 90 percent of the principal and interest of a loan issued 
to an Indian tribe for energy development. By leveraging these 
Federal resources, this program would encourage borrowers to 
partner with the private sector to develop energy projects with 
tribes on Indian land.
    I know this program falls outside the purview of the 
Interior Department but could I ask you to commit to working 
with me to get this program funded? We are talking about not a 
whole bunch of money but something that will leverage energy 
projects in Indian Country?
    Secretary Zinke. Senator, I would love to work with you on 
that because you are spot on. It is energy. In some cases, that 
energy results in a whole variety but it is economic 
development and without an economy, nothing else really 
matters.
    You have to have the core, an economy moving in whatever 
direction that tribe wants. You have to have an economy where 
people have jobs and a future. Schools and infrastructure are 
all tied into that.
    Those loan programs that can provide a path for energy in 
whatever form, wherever you are geographically, to leverage 
what you have I think is an important part of it.
    Senator Franken. I look forward to working with you, Mr. 
Secretary.
    The Chairman. Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman.
    Thank all of you for being here.
    Secretary Zinke, I have a bunch of questions I am going to 
try to run through real quick.
    We need help in making sure things and unique situations 
like in the Osage Nation in Oklahoma that they can use oil and 
gas production to take advantage of their resources. They have 
a very unique setting there. That has been an ongoing issue for 
a very long time for that tribe, just to be able to use their 
own resources.
    They work through BIA on that. That is something I would 
like to be able to have your help and engagement on.
    Secretary Zinke. You will, sir. Mr. Chairman, I look 
forward, if invited back, to continue to dialogue and also with 
each of you, away from the cameras. In a dialogue, we can sit 
down. If it helps Indian Nations and involves sovereignty and 
self-determination, you have my commitment.
    Senator Lankford. I would tell you the person sitting to 
your left and the Chickasaw Nation can give you a set of great 
ideas about some of the things that have happened when they 
have used their sovereignty and been able to develop business 
relationships. I am sure these other folks can also. I know 
very well what is happening in the Chickasaw Nation on that.
    There is a situation uniquely BIA-related and Interior-
related as well. That is moving land into trust. It is very 
inconsistent from place to place. In the northeast side of my 
State, it is three to five years on historic tribal lands to be 
able to move land into trust.
    We just had land in the northwest side of my State that is 
non-historic tribal lands that was just moved into trust to set 
up for a casino there, which in Oklahoma will be the 132nd 
casino in our State, was just moved into land in that area in 
less than two years.
    Secretary Zinke. Senator Dole talked to me about that.
    Senator Lankford. For the folks in the northeast part of 
the State that wait three to five years on historic tribal 
lands compared to the northwest side of the State that has non-
historic lands, to do it in less than two years has been 
surprising to us.
    To try to figure out the equity of it and the process, we 
have asked a lot of questions just on basic process issues. How 
is the decision made? What is the process decision? BIA 
leadership has come to this Committee that I have talked to 
directly about it. They have said it will take years. They have 
used terms like, it is rare, it is unusual, but it actually 
moved faster than a lot of other areas in the State have.
    For us, we are trying to figure out process. If you can 
help us get a clear delineation, that would be very helpful for 
all of our States and all of our regions.
    Secretary Zinke. I agree. I asked the same question this 
morning in the first meeting after talking to Senator Dole. 
There is great inconsistency. To date, the process is unclear 
to me. I will get to the bottom of it.
    Senator Lankford. Thank you.
    The Chairman. Senator Cortez Masto.
    Mr. Secretary, we have two left, two minutes apiece. Can 
you do it?
    Secretary Zinke. I am already late, sir.
    The Chairman. I guess you will have to submit your 
questions for the record. I am sorry.
    Senator Cortez Masto. I will do that.
    Secretary Zinke. I apologize. I will come back. I promise.
    The Chairman. Let us do this. Will you commit to come back 
and visit our Committee again so they have the opportunity to 
ask their questions?
    Secretary Zinke. Just request and I will come right back.
    The Chairman. All right, very good. That is what we will 
do.
    Senator Cortez Masto. Thank you, Mr. Secretary.
    The Chairman. With that, we will move to questions for the 
other members of the panel.
    Senator Cortez Masto. I am sorry you were not able to get 
your questions in. We will have the Secretary back. I do 
apologize. Are there questions you might have for other members 
of the panel?

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, gentlemen, for being here.
    The concerns you have discussed before us today are similar 
to concerns I also hear from our tribal community members in 
Nevada. I so appreciate you being here and look forward to 
working with you in addressing a number of these issues.
    Thank you very much.
    The Chairman. Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman and Vice Chairman 
Udall.
    I was going to run through the whole litany of issues that 
we have in Indian Country in my State, which I know is shared 
by so many of you. But the main question I wanted to ask 
Secretary Zinke is, are you going to fight for Indian Country 
in the budget process?
    Because all of this discussion and all of these issues that 
we talk about, if we fall back further on financing and meeting 
our treaty obligations, not much of it really matters. We are 
not going to build better schools. We are not going to have 
better health care. We are not going to have more and stronger 
law enforcement.
    We need a Secretary who is going to fight for Indian 
Country. I hope that all of the witnesses here will share my 
commitment to holding BIA's and the Department of the 
Interior's feet to the fire, HHS's feet to the fire, the Bureau 
of Indian Education's feet to the fire, and not leave Native 
Americans and Indian Country behind in this budget process. We 
have been left behind far too often.
    This is our opportunity and if we do not take it to stand 
together and fight for resources, we are going to fall further 
and further behind. I would invite anyone to comment on that 
but I feel very strongly that the main job of the Secretary of 
the Interior, as it relates to Indian Country, is to be the 
advocate in fighting for resources for Indian Country.
    Mr. Anderson. Thank you, Senator Heitkamp.
    I have a comment or two. Hopefully I can keep it organized 
in my head. If you were here earlier for my testimony, those 
were at the top of the list of asks that we will ask the 
Secretary to hold fast on. We expect his strong leadership on 
all of those issues.
    I cannot help but tie together all of the concerns we have 
shared here today with a lot of the concerns you all have. I 
know the Senator from Arizona, Mr. McCain, came in long enough 
to express his concerns on education.
    Hopefully, it was not the highly educated Indians 
administrating that money or going overseas into private 
accounts. We take that very seriously. A lot of the processes 
you talk about, the consultations we are talking about, the 
status quo is what I am hearing does not work.
    By that, I mean not consulting and not understanding the 
underfunding, the responsibilities not being met. When not 
understanding comes to bear, I think you will find you can 
change that status quo by honoring those treaties and doing the 
things that need to be done to keep those schools alive.
    My father went to boarding schools. My father also went to 
Haskell. I heard that school mentioned here today. My sister 
attended a school with poor conditions that Senator Franken 
helped generously. That was in the northern part of our State.
    The one thing I consistently hear is meaningful 
consultation for the particular tribe affected by Federal acts, 
meaningful consultation between the departments that affect 
those programs or what project they are working on.
    I could explain to you a lot of the reasons why these trust 
applications sit on the shelf for so long. You have tribes that 
can barely afford to fund their schools and IHS. Well, you wait 
long enough and it sits long enough on a desk, your 
environmental assessment expired. It is as simple as that. Now 
you have to come up with a lot of money and so forth.
    This was all intertwined in the administrative level of the 
Office of Realty, an extension of the BIA that takes land into 
trust. That type of technical work comes at a high cost. You 
have people in the trust process applying standards that just 
quite possibly are not there which has happened to us. We have 
a lot of experience in that.
    We are very fortunate that we have a lot of educated people 
who can bring us up to speed on that and understand that 
process. Right now, we have a realtor office solicitor who is 
doubling up on the title efforts.
    Every one of you who bought homes or property goes through 
transfer of right-of-ways or covenants previously held that you 
need to maintain. They need to come back, this individual needs 
another reaffirmation of that so legally it is covered but they 
need a legal reaffirmation that so the Federal Government is 
not stuck with the bill of say a barrel full of pollution that 
needs to be cleaned up.
    I do not know why the Federal Government would be held 
accountable for that but there are some standard of application 
or understanding of some type of application that quite 
possibly we have never heard of. That is where the consultation 
process comes in.
    As far as school funding and absconding with funds, that is 
something if we had process and control and exercised our 
sovereignty, we would make sure that our children were 
educated. We are in the process of doing that now. We are very 
fortunate.
    The one thing we do not want to have happen is to have that 
success supersede the responsibility the Federal Government has 
in providing some of those services. I have not heard about IHS 
dollars being turned back.
    In our particular case, IHS wanted a full accounting of all 
our tribal enterprises, all of our tribal finances to reconcile 
a shortage of IHS funds. That is the money you see back. We 
refused because quite frankly, that is their accounting that 
they are giving back, not ours. We do very well to supplement 
that money.
    If we can, we will redirect what we have. If we cannot use 
it, there are other tribes that can. We do not want to be 
relieving anybody's responsibility or put our nose into who 
gets what or who owes what.
    We are constantly trying to mend fences that are not at 
this particular level. Quite frankly, I hope we can continue to 
do that as we are very fortunate.
    Thank you.
    Mr. Keel. Mr. Chairman, with all due respect, I have to 
leave. I have to catch a plane.
    The Chairman. Mr. Keel, just a minute before you go. Do any 
of the Senators have questions for Mr. Keel before he leaves?
    The Chairman. Senator Lankford.
    Senator Lankford. I had a quick one if I could. We can chat 
later so you do not miss your plane because I know exactly what 
that feels like.
    Mr. Keel. Yes, sir.
    Senator Lankford. The Chickasaw Nation has been the gold 
standard for getting a chance to find ways to be able to do 
enterprises and projects, things like health care, that are a 
tremendous example for tribes around the Country.
    You have a lot you can contribute. I am sorry you have not 
had the opportunity to be able to contribute a lot of those 
things.
    Could you highlight some of the ways you have taken on some 
of the responsibility because you all have taken your tribal 
sovereignty very seriously, to be able to take on 
responsibility and authority and be able to take it on for the 
sake of the people of the Chickasaw Nation? Health care and 
other enterprises, it would be helpful to get on the record.
    Mr. Keel. Thank you, Senator.
    We believe in the Chickasaw Nation that the best social 
program is a good job. If we can create jobs for our people and 
have people be able to contribute to taking care of their 
families and their well being, then it makes the community 
better.
    We believe in being good community members, in fact, if we 
can help the community to develop resources to encourage not 
just creating menial jobs, but jobs that will be lost lasting 
and productive.
    Health care is one area we compacted with the Federal 
Government in 1994. We felt that the direct service component 
of the Indian Health Service was not serving our people. We 
undertook self governance compacts to overhaul it. We took it 
on. We made it based on the family practice model so that our 
people would have a relationship with their family doctor.
    We took our gaming revenues and entered a joint venture 
compact where we constructed a new hospital, state of the art, 
created about 300 additional jobs. Those are good paying jobs.
    Through those efforts, we have been able to establish 
clinics that will provide a lot of our employees who work in 
some of our businesses who are not Native American and do not 
have access to the Indian Health Service clinics. But we have 
been able to develop what we call a sovereignty clinic where 
those folks who have insurance can come to a clinic, get health 
care and we charge it to their insurance. That way at least 
they have access to quality health care. Those clinics are 
tribal business development opportunities. That is one example.
    Another example is we have taken on the role of making sure 
we diversify our economies. We have a chocolate factory, the 
Bedre Chocolate Factory located on Interstate 35 in Pauls 
Valley or actually in Davis, Oklahoma now. It is the finest 
chocolate in the world. Obviously, we cannot compete with 
Brachs or Hershey, for instance.
    Senator Lankford. Yet.
    Mr. Keel. Yet. But we do have some contracts with some of 
the upscale companies, Neiman Marcus and some of those folks. 
We believe we can get there.
    Another opportunity is a metal fabrication plant in 
southern Oklahoma. We purchased that from Siemens Corporation. 
It was a bankrupt deal. We took that and created about 110 
jobs. Once again, it is an opportunity to create jobs for our 
people and the surrounding communities. The communities then 
improve.
    Tourism is a mainstay in Oklahoma, the economy. We believe 
that we can help with that. I spoke with the Secretary about 
the Chickasaw National Recreation Area. We are working in 
partnership with them to create jobs. We created some trails. 
We built a bridge from our cultural center to the park so that 
we can access those trails.
    Those are opportunities we believe we have resources we can 
contribute to and co-manage with the Federal Government. There 
are a number of opportunities. We believe innovation is the key 
to survival.
    Senator Lankford. Are there any roadblocks that are out 
there from the Federal Government right now to any of those 
projects as far as developing business enterprises?
    Mr. Keel. There are a lot of Federal regulations that 
hinder us. As you heard about taking land into trust, some of 
those things are time consuming but we have been able to work 
with our Federal partners in finding ways to get around it.
    The difference between a bureaucrat and a leader is a 
bureaucrat will tell you here are the rules, we cannot help 
you. A leader will say, here are the rules; let us find a way 
to work together to make improvement in our lives. We are 
trying to find innovative ways to improve our economies.
    Senator Lankford. Thank you.
    Mr. Keel. Thank you, Senator.
    The Chairman. Mr. Keel, before you leave, I have a question 
for you.
    You mentioned briefly that you have been successful in 
building health care centers and clinics. Give us some advice 
here. How can we replicate that in other places? It is not just 
building them and staffing them and making them work. How do we 
do more of that?
    Mr. Keel. I could take a long time. I would be happy to 
come and visit with you and bring some of our experts. We 
believe we have developed some expertise in developing these 
clinics that we can export. We believe we can help even working 
with the Indian Health Service and partnering to develop some 
of these things.
    The staffing comes from some of the staff that was in local 
communities, the doctors and nurses. We put them on contracts 
initially and eventually fold them into the tribal governmental 
services and they become tribal employees through our 
Department of Commerce.
    The Chairman. We do want to follow up with you both in 
terms of your ideas on how other tribes could maybe replicate 
some of the things you have done but also your thoughts on how 
we can perhaps make IHS more effective in delivering services. 
It seems to me your ideas in both regards would be helpful. I 
will have my staff reach out to you.
    Mr. Keel. I will look forward to that. Thank you very much.
    The Chairman. Thank you for being here today.
    Also, thank you for your service as an Army Ranger. We had 
a Navy Seal. It only seems fair that we balance it out with an 
Army Ranger, right?
    Mr. Keel. Thank you. I appreciate that.
    The Chairman. Thank you.
    Mr. Not Afraid. also an Army Ranger?
    Mr. Not Afraid. Marine Corps.
    The Chairman. Marine Corps. Of course, we have to have the 
Marine Corps, Semper Fi. Thank you for your service as well and 
for being here.
    Mr. Anderson, thank you for making sure we had an 
opportunity to recognize that. I have a question for you.
    You have been very successful in economic development at 
Shakopee. What thoughts do you have, what recommendations, what 
can be replicated in other places along those lines? What top 
three recommendations in terms of economic development do you 
have for other tribes?
    Mr. Anderson. Business management and obviously health 
care. We have taken claims and preventative care. If we could 
figure out a way to extrapolate preventative care into current 
costs, that can show that tradeoff.
    In other words, we have clinics that we develop. We take 
the claim money that would otherwise have been spent going to 
another clinic, apply it to the clinic we are running 
offsetting that cost.
    I think of casino management or business management 
education. There is health care and just being a good neighbor, 
as Mr. Keel said. That helps the local businesses have 
confidence in being able to work with and assist you in 
building that neighborhood economy, that regional economy, if 
you will.
    Those are just three things I can think of offhand but I 
know given the time, I could easily come up with half a dozen 
or a dozen more. We deal with this stuff all the time.
    We are currently working with the city next to us, one of 
the two, to develop a water treatment facility that they will 
pay for over 25 years and we will provide them with treated 
water. That offsets our treatment facility costs not quite 50 
percent but they pay it over 25 years and they pay for the 
water.
    Should they not be able to do that without a waiver of 
sovereignty, then we will build one as we need one anyway but 
they will have to continue with their infrastructure plans, 
their future annexations and how they raise revenue to build 
their own water treatment facility. We are currently 
negotiating one of those agreements.
    The Chairman. Give me a rough idea of your territory.
    Mr. Anderson. We are south of Minneapolis about 30 miles. 
When I grew up there were deer wells and corn fields. Nobody 
really knew we were there until our former chairman, our first 
chairman, Norman Crooks, exercised our sovereignty by taking 
the diseased elm trees out of Minneapolis and brought them out 
to our reservation where we burned them.
    The question was, given ordinances and other things, were 
we able to do that. We did that for a price, of course. The 
challenge went nowhere.
    Looking at it now, we have a four-lane coming off a nice 
interstate, five or six miles away. We are considered inside of 
that natural area now, not urban rural. It has grown.
    The Chairman. Changed a lot?
    Mr. Anderson. Yes.
    The Chairman. Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman.
    I had meant to ask Secretary Zinke this question, but I am 
going to follow up with Chairman Torres. This was a question on 
the Bears Ears which was done as a national monument, as you 
know, by President Obama near the end of his Administration. I 
know some of Secretary Zinke's staff remains.
    I just wanted to let them know this is a very serious 
issue. I have talked with a number of my members both on and 
off the Committee about how important this is. It was 
remarkable to me that 20 tribes with cultural ties to this area 
in southern Utah came together.
    There were sometimes conflicting interests but they all 
worked with the Administration and worked with the shareholders 
to make sure things were resolved and it was ready to move 
forward with the monument. Now we have a monument.
    Chairman Torres, I thought I would ask you because I know 
specifically that the group of Pueblos that belongs to your 
council all united and sent a resolution. I would ask, can you 
describe how important the Bears Ears National Monument 
designation is to the Pueblos of New Mexico?
    Mr. Torres. Thank you, Senator Udall.
    The Bears Ears National Monument is very important to all 
the Pueblos. In that whole region in the Four Corners area, I 
have been there. In fact, we held an All Pueblo Council meeting 
there at the Crow Canyon Museum.
    All of those archaeologists and previous archaeologists 
there have worked in all those areas since the 1920s. It is all 
Pueblo. Our ancestors lived there. We believe the spirits are 
still there. In Pueblo Country, our tradition, our culture and 
our language is priority in everything that we do every day.
    The protection of not only Bears Ears but thousands of 
cultural sites there in that area is very important. Daily, 
they are being vandalized. They are not protected at all.
    I made a trip to D.C. with the archeologists from the Crow 
Canyon; they asked me to come with them to address that, to 
address getting them protected. I tried to help them but there 
is a lot to be done in that whole region as far as protection 
of all of those sites, including Chaco Canyon and Mesa Verde. 
All of those areas are all important and where our ancestors 
came from.
    Senator Udall. Thank you, Chairman Torres.
    The Chairman. I noticed our two other panelists were 
nodding. Do you have knowledge of this area and do you have 
anything to say on that in terms of Bears Ears or you just knew 
that existed?
    Mr. Anderson. Just knew.
    The Chairman. Thank you.
    I think it is a great example of tribes coming together 
because they saw the kind of damage that Chairman Torres said 
was happening to cultural resources and said we need to do 
something.
    I hope that Secretary Zinke takes very seriously that 
effort by the tribes and by all the stakeholders to get behind 
that designation.
    Chairman Torres, I wanted to ask you this. We have raised 
the issue several times about BIE schools and there were 
various questions. A number of Pueblos in New Mexico have 
recently taken over the operation of BIE schools located on 
tribal lands.
    What are some of the challenges that the Pueblos have faced 
in providing their tribal members with access to high quality 
and culturally appropriate educational services? How do Pueblos 
feel about the current reorganization efforts?
    Mr. Torres. I will tell you a little bit about Isleta. We 
took over our school last year. Secretary Jewell came down for 
that event. What was happening at Isleta, it was a BIE school 
for over 100 years and when it started getting really bad, we 
had nine principals in ten years at that school.
    When we, the tribal council and the governor, decided to 
make that a tribally-controlled school, we went through the 
process. It was not easy. We got it done, so we are able to 
incorporate our culture, our tradition and our language into 
the curriculum of the school. We are able to hire new teachers 
and set up a school board, everything that will make the school 
better.
    It is not running as smoothly as it should right now. There 
are ups and downs but we expected that. It cannot run perfectly 
right off the bat. There are challenges being addressed. It is 
in the best interest of our kids because that is what it is 
about, our kids. It is not about the politicians or the 
parents. It is about the kids and about their education. That 
is what we thought of when we did that.
    There are a lot of challenges to doing what we did with the 
BIE. There were many roadblocks that were set up that we had to 
deal with just taking over the school. The communication part, 
it took us months just to get the password so that the 
computers that were there in the classrooms could be used.
    I made many calls to the Department of Education here in 
D.C. We tried to get everything addressed smoothly but it did 
not work that way. There were a lot of problems.
    We have been trying to help other Pueblos on that same 
track of taking over their schools. We are helping them as far 
as telling them what we ran into and how to go about doing 
certain things. It was difficult.
    I think the reorganization of the BIE now, the way it is 
being set up, I am curious to see if it is going to work. They 
have one department for the BIE-run schools and another 
department for tribally-controlled schools. The rest of it, I 
do not know but I hope that it works because our kids need the 
quality education they deserve.
    The biggest problem Isleta faces now is convincing the 
parents to bring their kids back to the school because during 
the time when the schools was not going good, parents took 
their kids out and took them to other schools.
    Now that the school is set up better and everything is 
different, the biggest challenge is to talk the parents into 
bringing the kids back. It is not going to happen overnight. It 
is going to be a job to do that.
    Senator Udall. Thank you for your answer. I really 
appreciate that. Thank you, Chairman Hoeven, for allowing me 
one more question.
    This is on health care for all of you. It has been 
mentioned several times about health care being a top and 
essential priority. What impact would the Administration's 
proposed across-the-board budget gets have on tribal health 
care and the Indian Health Service? What would be the impact if 
those cuts were combined with proposed cuts to programs like 
Medicaid which brings in a notable amount of third party 
billing revenue to the Indian Health Service? Who would like to 
jump in on that one?
    Mr. Not Afraid. First of all, it would be devastating but 
as Crow, we have a plan if the whole world does not seek to 
accommodate, the solution would be allow the Crow Tribe to 
propose and with those governing dollars because obviously what 
we have seen is a lot of overhead costs in the medical field or 
in the department.
    I, as a veteran, utilize the VA systems which are a little 
more adequate, better service. When I go back to the IHS, they 
live by a rule called life or limbs. That being stated, they 
would only refer you out for cause of either severing a limb or 
it is life threatening.
    First of all, there is just poor quality care. It blows me 
away to hear that $130 million had to be turned back to 
Treasury when there are different regions that are not 
supported sufficiently financially.
    Therefore, as we have done a study, we are seeing that if 
you eliminate that department and gave the Crow Tribe its 
share, we could do enormous amounts of things for our people 
not only within health care but prevention which would 
alleviate the stress of long term issues with individuals.
    Therefore, with ACA, we would hate to see the tribes' 
identity as well as the treaty being violated because the Crow 
people, the Crow Nation, was never captured. The Crow Nation, 
on the other hand, had always worked diligently with the 
government and its peers to obtain not only its livelihood but 
the sector it lives in now.
    To just put us in the same pot as we all recognize as 
tribal leaders, we are unique in our own ways, yet we all share 
the common deficiencies. We all share the common crimes, the 
common issues across the board, yet when Interior thinks they 
know what is best for each individual tribe and pass some sort 
of policy or bylaw governing, they also forget each tribe is 
not only unique but previous congressional laws omit us from 
those types of bylaws and policies.
    Again, that would be a discussion for myself and Zinke to 
iron out as to which laws and policies is he going to follow, 
what he is mandated under. I believe we can have a good working 
relationship but at the same time, if he does not understand 
history, he ain't going to get very far because again, when it 
comes to economic development, we have over billions and 
billions of resources that need to be developed, yet with the 
hindrance of the bureaucracy because the left hand does not 
know what the right hand is doing in the Interior, that keeps 
the Crow Tribe incapable of development.
    It is a paper process that put tribal lands under the 
identity of public land. Therefore, it deters development. I 
just wanted to share that. It goes hand in hand because 
economics also complements health care.
    Senator Udall. Thank you.
    Mr. Anderson. All I can say is that understanding is very 
prevalent for our tribe through the $18 million annually that 
we donate. A lot of that goes into aiding in the health care 
industry or through economic development loans and so forth for 
other tribes. That kind of help is only needed through those 
deficiencies.
    We recognize that we are very, very fortunate to be able to 
afford a lot of things. That IHS money pays for a lot of 
things. A lot of urban Indians and non-members of our tribe are 
serviced with that money.
    The restrictions placed on that money limit that. I think 
there would be more use of our clinics if that was not in 
place. We see that and the biggest thing that comes to my mind 
is because we are very fortunate, we still have the issues.
    We have drug issues. One more issue before you get to 
rehabilitation or correction of drug use, if you will, if you 
are going to prevent, educate and learn about drugs and keep 
your kids off drugs and get them healthy, is aftercare.
    All of the things that precede that would be the foundation 
for just health care on its own. That is where you start. You 
assess your health, how you are doing now, what you need to do 
to fix that.
    If you have those abuse issues, which are very prevalent in 
Indian Country, that is just one more chip at the foundation. 
That is the way we can see it or all I can comment on for now.
    Senator Udall. Chairman Torres.
    Mr. Torres. I would like to share with you an example of 
the Pueblo of Laguna where the Medicaid expansion has helped 
the Pueblo of Laguna improve access to care systems on or near 
their medical home communities.
    Through Medicaid expansion, the Pueblo of Laguna enrolled 
approximately 768 plus members into Medicaid expansion. 
Increased funding from Medicaid allowed for purchase of 
referred care, expansion and stabilization. It now allows the 
Indian Health Service to expand accessibility, specialty care 
beyond general Indian health services.
    For example, patients can now and will improve their 
quality of life by receiving services such as retina surgery, 
knee replacements, hip replacements and so on. Medicaid 
expansion has improved the quality, efficiency and 
effectiveness for medical care within Native American 
communities.
    Offering education on Medicaid increases the knowledge of 
tribal members in the efforts of expansion for a robust and 
active enrollment process. Adults age 19 to 64 are eligible to 
apply for Medicaid. That is just one of the examples Laguna 
Pueblo had given me comments about as far as their health care.
    Senator Udall. Thank you.
    Thank you, Mr. Chairman. Thank you for your courtesies. I 
really appreciate it. This was a great panel today.
    The Chairman. Thank you, Mr. Not Afraid, Mr. Anderson and 
Mr. Torres for being here. We appreciate it so much.
    If there are no further questions, members may also submit 
written follow-up questions for the record. The hearing record 
will be open for two weeks.
    Again, I want to thank all of you witnesses. Thank you for 
being here. We appreciate it very much.
    With that, this hearing is concluded.
    [Whereupon, at 4:18 p.m., the Committee was adjourned.]

                            A P P E N D I X

    Prepared Statement of Ervin Chavez, School Board President/Faye 
   BlueEyes, Administrative Services Director, Dzilth-Na-O-Dith-Hle 
                     Community Grant School (DCGS)
    Thank you for the opportunity to submit a statement for the hearing 
record on behalf of the Dzilth-Na-O-Dith-Hle Community Grant School 
(DCGS) on the Navajo Reservation in Bloomfield, New Mexico. During this 
Committee's March 8, 2017, hearing, Senator McCain, Vice Chairman 
Udall, and Secretary Zinke expressed a desire to see improvement in the 
Bureau of Indian Education (BIE)-funded school system. At DCGS, we 
believe that all of our students are capable of achieving academic 
success and we work tirelessly to create the conditions that make that 
possible.
    DCGS has operated as a ``grant'' school in the BIE school system 
pursuant to the Tribally Controlled Schools Act (PL 100-297) since July 
1, 2005. We believe that we have an important perspective to share on 
both the challenges grant schools face and the success that can be 
achieved when local decisionmaking is respected, when language and 
culture are an integral part of the curriculum and when families are 
fully invested in their children's success. In fact, despite the 
challenges we face, students at DCGS are meeting or exceeding our peer-
schools in the BIE and New Mexico systems, and sometimes eclipsing 
national scores. We want a bright future for our children and we offer 
this statement to Congress and the Administration in a spirit of shared 
purpose.
    DCGS, which has been in continuous service since 1968, operates a 
K-8 educational program and a dormitory program for students in grades 
1-12, serving around 250 students in both programs. We are a tribally 
controlled grant school that is located approximately 170 miles 
northwest of Albuquerque. We are primarily funded through 
appropriations received from the BIE, and pass-through funding from the 
Department of Education. Our all-Navajo Board operates DCGS through a 
Grant issued by the BIE under the Tribally Controlled Schools Act.
    The Mission of DCGS is to grow, motivate, teach, and challenge our 
students to reach their fullest potential. To this end, we offer a 
rigorous academic curriculum that is rooted in Navajo language and 
culture. At DCGS we also believe in starting early. We are also one of 
44 BIE-funded schools to operate a Family and Child Education (FACE) 
program. Through this program we provide home visits and home education 
to serve children ages 0-5 and their parents. Parents are their 
children's first teachers. By strengthening family literacy and 
enhancing school readiness, we are promoting lifelong learning for our 
students and their families. Pairing the FACE program with our strong 
K-8 curriculum means that we are able to build a strong cultural and 
linguistic foundation from which our students and their parents can 
succeed.
    Academic success can be measured in many ways. We want our students 
to be well-rounded, critical thinkers and who are prepared to achieve 
great things once they leave DCGS. One component of this is ensuring 
that they are proficient in core, foundational skills that will empower 
them to gain new knowledge. The Partnership for Assessment of Readiness 
for College and Careers (PARCC) tests are designed to test these skills 
and we believe that PARCC proficiency is an important indicator of 
success. As you can see from our attached SY 2014-2015 PARCC test 
results, the average DCGS student score is often higher than the 
average student score throughout the BIE-funded school system and in 
the state of New Mexico. In some instances, the average DCGS student 
score even exceeds the national average.
    DCGS shares your concerns about the BIE's performance and 
accountability. Too often, our ability to achieve and demonstrate 
academic success comes in spite of, rather as a result of, BIE's 
involvement. For instance, in SY 2015-2016, the BIE purchased the PARCC 
tests from the vendor on DCGS's behalf, rather than allowing DCGS to 
maintain a direct relationship with the vendor. Unfortunately, through 
a record-keeping problem, the scores from several former DCGS students 
who having been attending other schools were incorrectly attributed to 
DCGS. To no avail DGCS has repeatedly asked the BIE to work with the 
vendor to correct this error and properly attribute the PARCC scores. 
Had we been allowed to maintain a direct relationship with the vendor, 
we believe that this error would have been corrected quickly. Instead, 
months later, we are still waiting. Because we are a small school, this 
error has had a dramatic effect on our average scores for SY 2015-
2016--skewing an important marker we use to measure our success in 
providing a quality education for our students. We highlight this only 
to illustrate some of the problems that can arise when the BIE inserts 
themselves into the day-to-day decisions that tribal schools are 
already managing successfully.
    DCGS is also working with a difficult situation at the BIE where, 
the new Education Resource Centers that were the result of the BIE 
Reorganization have still not been staffed up properly and are not able 
to quickly respond to inquiries or requests for assistance. Going 
forward, we ask that the focus of the BIE be on supporting and 
partnering with tribal schools as we work to provide the best possible 
education for our students.
    Another challenge we have been working to overcome is the state of 
our facilities and the level of federal funding we receive for basic 
everyday operations. It has been painful for those of us who drive to 
work at DCGS past state-funded public schools that are still in decent 
condition, but are being knocked down to build brand new schools. For 
years, we would have gladly traded our own crumbling buildings for any 
of these soon-to-be demolished schools. However, Congress has given us 
hope these last three years. Not only has Congress, for the first time 
fully funded Tribal Grant Support Costs (the Contract Support Costs for 
tribal grant schools) but Congress has also increased funding for other 
essential priorities such as the Indian School Equalization Program 
(ISEP) (our core funding source), Facilities Operation and Facilities 
Maintenance, and Replacement School Construction. In 2016, we were 
overjoyed to be selected as among the BIE-funded schools eligible for 
school construction funding. With planning funding in hand, we are now 
meeting weekly with a team from the Bureau of Indian Affairs 
Albuquerque Facilities and Construction Center and the firm we 
selected, Rock Gap Engineering, a 100 percent Native American owned 
engineering and construction firm. We are engaged in each stage of the 
planning process and are making sure that there is an accounting for 
each and every penny of our hard won planning funds. We anticipate that 
the planning phase will be complete in June of this year and look 
forward to the design phase beginning shortly after.
    What is difficult for us to bear is that just as Congress has more 
fully recognized the real need that tribal schools have for equitable 
funding and safe facilities, there have also been discussions about 
bringing in for-profit charter schools and making federal funding more 
``portable''. As tribally controlled grant schools in the BIE school 
system, we operate in many ways like charter schools: we have greater 
leeway than the BIE-run schools to manage our school and design 
innovative ways to engage our students. If we are granted even greater 
freedom on curriculum design and more equitable facilities, we believe 
that we could help our students achieve even more. However, we are 
concerned that if opportunities for for-profit charter schools are 
expanded, we do not think that Congress would appropriate any more 
funds for the BIE school system. Rather, any new for-profit charter 
schools that are built would rob tribal grant schools in the BIE system 
of the opportunity for being repaired or replaced for the very first 
time in decades. We have already watched from the sidelines while 
Congress spent over a billion dollars to replace aging facilities in 
the Department of Defense-funded school system while BIE-funded schools 
were left behind. These past few years have been our very first 
opportunity to try to catch up. We hope you will work with us to ensure 
that these vital gains are not siphoned off just as we are beginning to 
invest in fundamental improvements that will create healthy and 
productive learning environments for our students.
    The Mission of DCGS is to grow, motivate, teach, and challenge our 
students to reach their fullest potential. Everything we do as a 
school, we do with this mission in mind. We believe that our model of 
local decisionmaking, high standards, respect for language and culture, 
and close engagement with family and community can be replicated. Our 
students are our future and we submit these comments in a spirit of 
shared purpose. As both Congress and the Administration continue to 
exercise oversight over Indian education, please consider us a 
resource.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
Prepared Statement of LoRenzo Bates, Speaker of the 23rd Navajo Nation 
                                Council
    Y't'eeh Chairman Hoeven, Vice-Chairman Udall, and Members of the 
Committee. My name is LoRenzo Bates and I currently serve as the 
Speaker of the 23rd Navajo Nation Council, which serves as the 
governing body of the Navajo Nation. Thank you for the opportunity to 
submit testimony to the committee on a matter of great significance to 
the Navajo Nation on behalf of our 110 chapters and the over 300,000 
enrolled members of our tribe.
    In December, several of my Council colleagues and I had the 
opportunity to present our priorities during the listening session 
hosted by the Trump Administration's Native American transition team. 
During that time, I also had the honor of meeting with several key 
Congressional members to present a document outlining the priorities of 
the Navajo Nation.
    Now that the Trump Administration is in office and the Senate has 
confirmed Honorable Ryan Zinke to serve as the Secretary of the 
Interior, we feel it is crucial to once again present these priorities 
that have been developed based on input and recommendations from the 
Navajo people, communities, and leadership.
    However, before I provide a broad overview of the Navajo Nation's 
priorities, I would like to address a very important issue that has 
developed in recent months that requires the attention of all who hold 
the best interests of Indian tribes in their highest regard. As you may 
be aware, the owners of Navajo Generating Station (NGS) power plant 
recently voted to end their ownership of the plant at the end of 2019. 
This has created uncertainty for the Navajo Nation moving forward.
    The power plant not only provides approximately one third of the 
Navajo Nation's annual budget every year and hundreds of well-paying 
jobs for many Navajo people, but it also is the sole purchaser of coal 
from the Kayenta Mine which is owned by the Navajo Nation and Hopi 
Tribe. Royalties from the coal sold to NGS provides additional revenue 
and jobs for the Navajo Nation as well.
    Acting Deputy Secretary of the Interior James E. Cason took the 
initiative of bringing all of the stakeholders together on March 1, 
2017 to discuss potential options. The stakeholders agreed to work 
collectively to develop possible solutions including identifying 
possible new owners and operators of NGS, and purchasers of the coal 
from Kayenta Mine. The next meeting is scheduled to take place in April 
where stakeholders will provide updates on their progress.
    Moving forward, it is very important that the Senate Committee on 
Indian Affairs is aware of the circumstances involving Navajo 
Generating Station and Kayenta Mine. We ask that your committee as well 
as your Congressional offices monitor this situation and we ask for 
your support moving forward.
    Below are the common priorities developed by the three branches of 
government. The listing provides a broad overview and of these 
priorities and we are more than willing to discuss these issues with 
you in detail.
Common Priorities of the Navajo Nation Government
Infrastructure Development & Improvements
  <bullet>  Roads, to gravel and grade
  <bullet>  Power Lines, three-phase and residential
  <bullet>  Water, main and individual tap-off
  <bullet>  Waste Water lines & Sewer Lagoons
  <bullet>  Telecommunication & Broadband
  <bullet>  Information Technology & Sharing
  <bullet>  Rural Addressing & E911
  <bullet>  Former Bennett Freeze Recovery Plan
Economy
  <bullet>  Job Creation & Business Opportunity
  <bullet>  Partnership
  <bullet>  Bank
  <bullet>  Energy
  <bullet>  Economic Zoning
  <bullet>  Revenue Generating & Investment
Water Rights
  <bullet>  Utah Water Rights
  <bullet>  Little Colorado River
  <bullet>  Colorado River
Housing & Public Facility
  <bullet>  Navajo Housing Authority, TDHE
  <bullet>  Governmental Employee Housing
  <bullet>  College Student Housing
  <bullet>  Nursing Homes
  <bullet>  Head Start Facilities
  <bullet>  Multipurpose Centers at Chapters
  <bullet>  Agency Office Complexes
  <bullet>  Council Chambers & Executive Office Complex
  <bullet>  Supreme Court Complex
  <bullet>  Judicial Complexes
  <bullet>  Solid Waste Transfer Stations
  <bullet>  Trauma Centers
Education
  <bullet>  Head Start, Early Education
  <bullet>  Dine Language & Culture Preservation
  <bullet>  Scholarships
  <bullet>  Grant & Contract Schools
  <bullet>  Tribal College & Vocational Training
Human Services
  <bullet>  Healthy Lives & Strengthening Families
  <bullet>  Health Department Regulatory
  <bullet>  Veterans
  <bullet>  Elderly & Youth
  <bullet>  Urban Services
  <bullet>  Treatment Centers
  <bullet>  Medicare & Medicaid
Governance
  <bullet>  Chapter Government
    --LGA & CLUP
    --Administrative Service Centers
    --Local Dispute Resolution & Ordinances
  <bullet>  Improving & Streamlining Governmental Process
  <bullet>  Grant & Contract Management
  <bullet>  Federal Law Amendments
  <bullet>  Utah Navajo Trust Fund
  <bullet>  Procurement Rule & Regulation
  <bullet>  Employee Professional Development
  <bullet>  Independent Judiciary
  <bullet>  Sovereignty & Dine Fundamental Law
  <bullet>  Budgetary Process
Public Safety & Judicial
  <bullet>  Additional Law Enforcement & Other First Responder 
        Personnel
  <bullet>  Police Substations
  <bullet>  Fire & Rescue Services
  <bullet>  Equipment
  <bullet>  Restorative Justice
Natural Resources
  <bullet>  Land
    --Range Land Management & Improvement
    --Streamline Land Purchases
    --Livestock
    --Agriculture & Farming
    --Fort Wingate
  <bullet>  Water
    --Navajo/Gallup Project
  <bullet>  Environment
  <bullet>  Energy Development
  <bullet>  Uranium Remediation
    As I stated previously, this is a brief overview of the many 
priorities and needs of the Navajo Nation. I do not want to convey that 
we are simply asking for the Federal Government's assistance, but we 
are instead seeking partnerships with the various federal agencies on 
initiatives that we are currently undertaking.
    For example, over the last year the Navajo Nation Council has 
approved over $330 million for water infrastructure projects, economic 
development projects, agricultural development, and various other 
initiatives. We have stepped up to the plate and put forth our own 
funds to address many areas identified within the list of priorities.
    We look to continue meeting with the Trump Administration, 
Congressional members, and the Senate Committee on Indian Affairs to 
address these areas and to form and/or further develop partnerships to 
move us forward. The Navajo Nation Council is always willing and ready 
to sit down with all of you to discuss these issues.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Hoeven to 
                            Hon. Ryan Zinke
    Question 1. Mr. Secretary, how do you balance taking off 
reservation land into trust and the balance of preventing off 
reservation casino shopping? The premise behind allowing tribes to open 
casinos was to provide an economic engine for the tribe and its 
members, allowing them to diversify their business interests for their 
long term economic success within their homelands. It appears that 
tribal homelands have been expanded, from their aboriginal tribal 
homelands. Mr. Secretary, what parameters will you put in place for 
this balance?
    Answer. Mr. Chairman, I understand the need to find balance in the 
off reservation gaming process. I also know how important the land into 
trust process is for tribes. I have been working with Indian Affairs, 
particularly the Office of Indian Gaming, and the Solicitor's Office to 
get a better grasp on where things stand and how to best proceed. Once 
we have identified a path forward, I would be happy to update you.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                            Hon. Ryan Zinke
    Question 1. BIE School Safety. I am told that the BIE/BIA has 
completed inspections of all 185 BIE schools. As we discussed during 
hearing, please provide me with a status report on the state of BIE 
facilities in Arizona.
    Answer. Senator, I can confirm that in FY 2016, Safety and Health 
inspections were conducted at 100 percent of BIE schools. The attached 
spreadsheet, titled FY 2016 Safety and Other Inspections Status Report, 
shows the 53 BIE school locations in Arizona and when their Safety and 
Health inspections were conducted in FY 2016. As of this response, 35 
of the 53 schools in Arizona have already had their Safety and Health 
inspection conducted for FY 2017. The remaining schools are set to be 
inspected by June 2017. The following summary chart shows the condition 
summary for each of the 53 schools in Arizona as of the end of FY 2017 
first quarter reporting:


 Summary of BIE Schools Condition in Arizona by Facility Condition Index
                       (FCI) as of March 31, 2017
------------------------------------------------------------------------
                  Condition                      Number        Percent
------------------------------------------------------------------------
Good                                                    12            22
Fair                                                    11            21
Poor                                                    30            57
------------------------------------------------------------------------
    Total                                               53
------------------------------------------------------------------------


    Question 2. 2017 GAO High Risk report (GA0-17-317 High Risk 
Series). In 3 different reports dating back to 2013, the GAO made 13 
recommendations to improve Indian Affairs' management of BIE schools. 
However, as of the 2017, eleven of GAO's recommendations remain open. 
When will the Department be responding to GAO's eleven outstanding 
recommendations?
    Answer. BIE has committed to me that they are working to complete 
the actions recommended in each of the three GAO reports:

        GAO-13-774
        Five recommendations: (1) Develop and implement decisionmaking 
        procedures which are documented in management directives, 
        administrative policies, or operating manuals; (2) develop a 
        communication strategy; (3) appoint permanent members to the 
        BIE-Education committee and meet on a quarterly basis; (4) 
        draft and implement a strategic plan with stakeholder input; 
        and (5) revise the BIE strategic workforce plan.
        BIE has completed the implementation of findings two, three, 
        and five. In turn, the GAO has cleared those findings. BIE is 
        continuing to implement GAO's recommendations with respect to 
        findings one and four. Specifically, BIE plans to draft and 
        implement a Departmental Manual and updated Strategic Plan as 
        soon as possible.

        GAO-15-121
        Four recommendations: (1) Develop a comprehensive workforce 
        plan; (2) implement an information sharing procedure; (3) draft 
        a written procedure for making major program expenditures; and 
        (4) create a risk-based approach in managing BIE school 
        expenditures.
        BIE submitted a finalized closure package to GAO for 
        recommendations two, three, and four in August 2016. BIE is 
        continuing to develop a comprehensive workforce plan to address 
        recommendation one. A draft has been completed, and my team is 
        further reviewing the plan.

        GAO-16-313
        Four recommendations: (1) Ensure that all BIE schools are 
        inspected as well as implement a plan to mitigate challenges; 
        (2) prioritize inspections at schools where facility conditions 
        may pose a greater risk to students; (3) develop a plan to 
        build schools' capacity to promptly address safety and health 
        problems with facilities and improve the expertise of facility 
        staff to maintain and repair school buildings; and (4) 
        consistently monitor whether schools have established required 
        safety committees.
        To address findings one and two, BIE has worked with the Bureau 
        of Indian Affairs (BIA) to implement a Safe School Audit. The 
        audit was successfully completed at all BIE-funded schools and 
        the agencies started the process of implementing corrective 
        measures for all identified deficiencies. For findings three 
        and four, BIE is conducting ongoing staff and administrator 
        training and is working with BIA to provide ongoing support for 
        school safety committees through school inspections. I 
        recognize reporting for such activities is lacking, so BIE is 
        working with BIA to provide oversight of such inspections.

    Funding of BIE of schools. In GAO's 2014 report Bureau of Indian 
Education Needs to Improve Oversight of School Spending, GAO estimated 
that the average per pupil expenditures for BIE-operated schools were 
about 56 percent higher than for public schools nationally in school 
year 2009-10, and BIE operated day schools spent an estimated average 
of at least $15,391 per pupil. Please answer the following questions 
for both BIE-operated and tribally operated BIE schools.
    Question 3a. Are BIE schools funded based on the number of enrolled 
students? If so, what proportion of funding is based on the number of 
enrolled students?
    Answer. As an initial matter, it should be noted that the GAO 
report acknowledged that both student demographics and smaller 
enrollments in, and the remote locations of many, BIE schools 
contributes to this higher per pupil expenditure.
    The student count submitted by schools is used to calculate the 
average daily membership (ADM) which then has weights applied pursuant 
to 25 CFR Part 39 to generate weighted student units (WSUs). With the 
exception of student transportation, tribal grants support costs funds, 
facilities operations, and maintenance funds, all other funds are 
allocated to schools based on their total ADM or WSU.

    Question 3b. Is there a standard way that BIE schools report 
student enrollment?
    Answer. Yes. Under Public Law 95-561, as amended, and 25 CFR Part 
39, each student is counted based upon statutory criteria. All schools 
report their student count data using the Native American Student 
Information System (NASIS), a student count application adopted by BIE 
in 2005.

    Question 3c. Do BIE schools receive additional funding weights 
based on student characteristics (ex: English language learners, low 
income students, students with special needs)?
    Answer. Yes. Students receive weights for their basic academic 
programs and supplemental weights if they participate in a residential, 
gifted and talented, and/or language development program. The 
Department of Education has provided about 21 percent of funding for 
BIE schools through a variety of programs, including the Elementary and 
Secondary Education Act (ESEA) and the Individuals with Disabilities 
Education Act (IDEA) Part B Grants to States program.

    Question 3d. How do per pupil allocations differ between tribes and 
geography?
    Answer. The per pupil allocation is calculated from the student 
data entered by each school in both the BIE database and via the Indian 
School Equalization Program (ISEP) formula. Weights are assigned to 
each student based on the student's grade, base program, and 
supplemental programs. Students with the same characteristics generate 
the same weights and dollar amount, regardless of school location, 
school operator, or tribal affiliation.

    Question 3e. How do facilities funding processes differ between 
BIE- and tribally-operated schools?
    Answer. The facilities funding process is the same for all BIE and 
tribally operated schools. The funding is calculated using the data 
entered by the individual school in Indian Affairs' facilities database 
program, Maximo. The Maximo system utilizes a formula that calculates 
the facility's needs based on the data from each school.

    Question 3f. Using the most recent available data, please estimate 
per pupil expenditures at BIE schools in categories of instruction, 
transportation, facilities operations and maintenance, and 
administration.
    Answer. Please see the attached table labeled as responsive to Q. 
3.
    Attachments
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
   Response to Written Questions Submitted by Hon. James Lankford to 
                            Hon. Ryan Zinke
    Question 1. There are times that a tribe may place land into trust 
for the purposes of economic development or other venture then, 
sometime later, decide to utilize the land for gaming. In this type of 
situation, are there any steps the tribe must go through to seek 
authorization from the Department before gaming may be conducted? How 
do these steps, if there are any, compare to the process the tribe 
would go through if they had originally applied to place the land into 
trust for gaming? (Please answer for situations where the land is on 
and off of the tribe's reservation or, the case of Oklahoma, on or off 
of the tribe's former reservation boundaries.)
    Answer. Any land upon which a tribe wishes to conduct gaming must 
be legally eligible for gaming per the criteria set forth in the Indian 
Gaming Regulatory Act (IGRA). Tribes often apply to the Department or 
to the National Indian Gaming Commission for an Indian Lands 
Determination, which is a legal opinion about the eligibility of the 
land for gaming.
    In addition to a determination of whether the lands are eligible 
for gaming, IGRA requires that tribes conducting class III gaming enter 
into a tribal-state compact with the state in which the gaming 
enterprise is proposed. Class III gaming is lawful only if authorized 
by a tribal ordinance or resolution that is approved by the National 
Indian Gaming Commission (NIGC). Tribes must also license gaming 
facilities and notify the NIGC of such licensing. If a tribe elects to 
have its casino managed through a third-party, a gaming management 
contract must also be approved by NIGC. In cases where the lands are 
already in trust, the NIGC typically determines whether the lands are 
eligible for gaming.

    Question 2. Can you provide a list of any casinos operating under 
the authority of the Indian Gaming Regulatory Act in Oklahoma that are 
on land originally placed into trust for a different purpose then later 
utilized for gaming?
    Answer. Senator, the Department has not historically maintained a 
list of Tribal gaming facilities that are on land originally placed 
into trust for another purpose. That said, we are interested in looking 
into methods to better track this information during my tenure.

    Question 3. Over the last few years, I have asked the Department to 
provide a detailed listing of metrics used to gauge the success and 
impact of individual programs relating to Indian Country. This has 
included a request of the Department to provide individual program 
level goals and plans made in advance of an upcoming year (fiscal or 
calendar) than any review conducted to determine whether or not the 
individual program has met those goals after the conclusion of that 
year. In response the Department has provided aspirational goals for 
solving issues or problems in Indian Country each year but not any 
program level metrics, goals, or plans followed by analysis at the end 
of the year on how well those goals or plans were met. Will this level 
of detailed program goal planning and measuring be a priority under 
your leadership and, if so, could you provide any initial program level 
goals you and your staff have started to develop?
    Answer. As a former military commander, I place great merit in 
setting detailed goals for my team to assess what we have done and 
where we are going. I will lead the Department forward in this same 
way. Data should drive the policy, and I will work to identify, track, 
and improve performance metrics for our programs.

    Question 4. Do you believe there are ways to improve the provision 
of programs and benefits for Indian Country by increasing cooperation 
and coordination between the Department and the various other federal 
Departments that provide services to American Indians and tribes? 
Specifically, are there ways to ensure that the Department is not 
operating and funding programs seeking to accomplish the same or 
similar goals as programs housed in other cabinet level Departments?
    Answer. I firmly believe there are ways for the federal government 
to coordinate more efficiently and effectively with tribes, which is 
why I committed to Chairman Hoeven at the hearing to work with my 
colleagues across the various Departments to make our work as efficient 
and effective as possible. I, too, believe it is important to review 
programs and services to ensure they are not duplicative in scope and 
funding. We must be resourceful while also continuing to fulfill our 
trust responsibilities to tribes.

    Question 5. In what ways will the Administration support tribes 
seeking to leverage their energy resources for economic development? 
Would this include providing technical support for tribes seeking to 
take over the management of resources and the issuance of permits for 
energy development?
    Answer. I am committed to evaluating all opportunities within the 
Department to strengthen and support tribes' abilities to develop their 
energy resources as they so choose.

    Question 5a. As of the end of 2016, no tribe had entered into a 
Tribal Energy Resource Agreement (TERA) as allowed by the Energy Policy 
Act of 2005. Will the Administration put in place clear protocols that 
will allow interested tribes to easily enter into these agreements?
    Answer. As Secretary, I want to ensure we use existing authorities 
so tribes have the ability, authority, and independence to control 
their energy futures.

    Question 5b. In at least some situations, the BIA must give final 
approval for permits for oil and gas development on tribal land. If a 
relevant tribal governing authority has given sufficient review and 
approval to that permit before it is considered by the BIA, would the 
Administration consider a policy that this review and sign-off is not a 
federal action under NEPA if that tribal authority has agreed to a 
waiver of federal liability for any actions occurring after that permit 
is approved?
    Answer. Like the President, I am dedicated to putting our nation 
back on track towards energy independence and creating good paying 
jobs. This also applies to tribes who are interested in developing 
their resources, from coal to wind energy. I commit to you that I will 
review policies that will empower tribes to responsibly develop their 
own resources, if that is their choice.

    Question 6. Does the Department intend to conduct a count this year 
of Indian students attending public schools for the Johnson O'Malley 
Program?
    Answer. Recognizing that congressional action is needed to change 
the current funding methodology, I have tasked BIE to complete a new 
student count and will work with JOM contractors to ensure JOM students 
are included.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Al Franken to 
                            Hon. Ryan Zinke
    Question 1. Indian Gaming. Secretary Zinke, the Indian Gaming 
Regulatory Act mandates that Indian tribes use gaming net revenue for 
government purposes. These funds supplement basic services like health 
care, education, housing, public safety, and roads. The Indian Gaming 
Regulatory Act also expressly prohibits state taxation of tribal 
gaming. Despite this, I have heard from tribal leaders concerned that 
the Trump administration might push for state taxation of tribal 
gaming, which would be in line with President Trump's past unfavorable 
statements regarding Indian gaming.
    Secretary Zinke, will you protect Indian gaming against any new 
taxes or regulations that will limit the existing rights of tribal 
governments to conduct gaming on their lands under the Indian Gaming 
Regulatory Act?
    Answer. I am an advocate for tribal sovereignty and self-
determination. In considering any new regulations or policies, I will 
comply with Federal laws, including IGRA, and the Department's tribal 
consultation policy.

    Question 2. Sexual Violence in Indian Country. A recent National 
Institute of Justice report found that more than half of American 
Indian and Alaska Native women-and more than one in four men- have 
experienced sexual violence in their lifetime. And among those who have 
experienced sexual violence, almost all--96 percent of women and 89 
percent of men--have been victimized by a non-Indian partner. That is a 
horrific statistic. And despite their prevalence, crimes of sexual 
violence committed by non-Indians in Indian Country often go 
unprosecuted and unpunished, leaving victims without justice and 
offenders on the loose. So last Congress, Senator Murkowski and I 
introduced the Justice for Native Survivors of Sexual Violence Act, 
which would recognize and reaffirm Indian tribes' inherent power to 
exercise criminal jurisdiction over non-Indians who commit crimes of 
sexual violence in Indian Country. This commonsense legislation will 
lay the groundwork for tribes to address sexual violence in their 
communities in a meaningful way, and I'm looking forward to 
reintroducing the bill soon.
    Secretary Zinke, for your part, I want to know from you how the 
Interior Department will work with tribes to strengthen their tribal 
justice systems and ensure that they have the resources they need to 
take on this critical work. I also understand that the Department of 
Justice has the primary responsibility for investigating and 
prosecuting crime in much of Indian country. When Senator Sessions came 
before the Judiciary Committee, I asked him about his views on these 
issues and was concerned by how much he has to learn about law 
enforcement in Indian Country. Can you assure me that you will 
coordinate and share information with the DOJ to ensure that there is a 
comprehensive understanding of how these crimes impact Indian Country?
    As a follow-up Secretary Zinke, I would encourage you to bring the 
Attorney General with you the next time you visit Indian Country.
    Answer. Senator, I will work closely with the Attorney General and 
our colleagues at the Department of Justice to strengthen our 
collaborative efforts to keep Indian Country safe and to ensure that 
victims of crimes are able to seek justice.

    Question 3. School Construction. Indian school construction is 
always in need of increased funding. Bureau of Indian Education schools 
across the country are falling apart. In Minnesota, after years of 
fighting for funding, we were finally able to start construction to 
rebuild the Bug-ONay-Ge-Shig high school last summer. American Indian 
students should not be excluded from receiving an exceptional 
education. Yet Indian school buildings are often unsafe, harmful to the 
health of children and teachers, and are ultimately a barrier to the 
education of students.
    Secretary Zinke, in your testimony you state that--and I quote--
``It is unacceptable that some of our students are attending schools 
that lack the most basic necessities, like insulation and clean 
water.'' I agree. But we can't prevent this problem without adequately 
funding school construction. As our new Secretary of the Department of 
the Interior, will you commit to fighting for increased funding for BIE 
school construction so our Indian students don't have to learn in 
unsafe settings?
    Answer. My staff and I are committed to addressing BIE school 
infrastructure needs. We continue to review new approaches to ensure 
all funds are utilized effectively and efficiently. I want to guarantee 
that the projects we support improve safety and foster a conducive 
environment for our students to receive an exceptional education.

    Question 4. Opioid Crisis. In Minnesota and across the nation, 
opioids have become a public health emergency. Indian reservations in 
my state have been on the frontline of this crisis and the statistics 
of how this is impacting future generations is incredibly troubling. In 
fact, American Indian women are 8.7 times more likely to be diagnosed 
with maternal opiate dependency during pregnancy compared to non-
Hispanic whites, and more than one in ten newborns among American 
Indian women in Minnesota are born opioid dependent. I've met with many 
tribal leaders, and what's clear from these meetings is that we need a 
multipronged approach to address the opioid crisis in Indian Country. 
We need more research, less over-prescription, greater resources for 
prevention, and better access treatment.
    Secretary Zinke, how do you plan to collaborate with your federal 
counterparts at IHS and HHS, as well as state, and regional 
stakeholders to create interventions to combat the opioid epidemic? And 
how will you leverage input from Native Americans or other communities 
to develop effective, culturally-based interventions?
    Answer. I have seen firsthand what the opioid crisis has done to 
tribes in Montana. It is devastating to see the shattered families and 
communities who continue to suffer from the effects of opioids. While 
the majority of substance abuse services to Indian County falls under 
the Department of Health and Human Services (HHS), I see great merit in 
collaborating with my colleagues across agencies to meaningfully 
address the epidemic. This also includes consulting with tribes on a 
path forward.

    Question 5. Dental Therapy. The lack of consistent and reliable 
access to oral health care has long been an issue facing Indian 
country. Increasingly, tribes have expressed interest in utilizing mid-
level providers such as dental therapists to address this need. States 
like Minnesota and Alaska--have already authorized the ability for 
dental therapists to practice--and have demonstrated that dental 
therapists increase access to critically needed and culturally 
competent care for rural and Indian communities.
    Secretary Zinke, will you commit to working with your colleagues at 
the Indian Health Service and Department of Health and Human Services 
to address the health care needs of American Indian tribes by 
continuing to build on models that promote increased access to quality 
oral health care?
    Answer. Yes, I will work with my colleagues at IHS and HHS to 
better coordinate and support health needs across Indian Country.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Hon. Ryan Zinke
    Question 1. In my home state of Nevada, the recently designated 
Gold Butte National Monument protects a wealth of cultural resources of 
significance to the entire American people, but in particular Native 
American tribes of this area. Moapa Band of Paiutes, Las Vegas Paiute 
Tribe, Ely Shoshone Tribe, and the Paiute Indian Tribes of Utah 
supported the designation of this monument.
    As steward of these lands, will you commit to protecting these 
cultural resources and taking into account the support of these tribes 
when considering any decisions regarding future management of the Gold 
Butte National Monument?
    Answer. Regardless of the issue, consultation with tribes is 
paramount. I remain committed to working with tribes on a government-
to-government basis, particularly when it pertains to matters under 
Interior's jurisdiction.

    Question 2. When ancestral tribal lands or sacred lands are managed 
by another government entity such as the Bureau of Land Management, 
which you oversee, what is your vision of the Department's 
responsibilities to the tribes in area management?
    Answer. Senator, I strongly believe government-to-government 
consultation is key when making any land management decisions. I remain 
committed to working with tribes to ensure meaningful consultation 
occurs, not only with the Bureau of Land Management, but the other 
bureaus I oversee.

    Question 3. One issue that is of serious concern to tribal 
communities in Nevada and across the region is the vandalism and 
destruction of cultural resources like petroglyphs as well as looting 
and grave robbing.
    At places like Gold Butte National Monument, these incidents have 
continued to be a concern to the locals. While the national monument 
designations sought by tribal leaders are a step in the right direction 
to provide further protections, I need your assurance that they will 
continue to be protected.
    What is your vision for ensuring federal law enforcement and 
federal land managers have the tools and resources necessary for 
preventing looting and vandalism which destroys cultural resources and 
sacred sites?
    Answer. Our federal land managers and law enforcement personnel 
provide critical services in the field. This includes protecting 
important cultural resources and sacred sites. As Secretary, I seek to 
inspire and empower those on the ground to perform these important jobs 
to the best of their abilities.

    Question 4. Some have suggested eliminating federal law enforcement 
on federal lands and shifting this responsibility onto our already 
overburdened law enforcement. Given the specialized training needed for 
these entirely different law enforcement roles and the federal trust 
responsibility that exists for protecting these lands, do you think it 
is appropriate to eliminate federal law enforcement on federal lands?
    Answer. As Secretary of the Interior, I believe our law enforcement 
personnel perform a critical role on the front lines to protect our 
tribal communities, along with natural resources and the people who 
access them. I am committed to ensuring they are amply supported in 
their roles. At the same time, it is imperative that the Department 
continue to collaborate with state, tribal and local law enforcement in 
situations requiring greater support.

    Question 5. The Federal Government is required to, and has a 
responsibility to, engage in regular and meaningful government-to-
government consultation and collaboration with tribal officials.
    Do you believe that the government's consultation policy was 
followed properly in the decisions surrounding the Dakota Access 
Pipeline in North Dakota?
    Answer. As Secretary, I am working to rebuild trust among our great 
Indian Nations, which comes from mutual respect. I believe that through 
mutual respect, we can seek common ground on matters such as 
infrastructure projects.

    Question 6. The President has supported projects, like DAPL, as not 
only energy investment but as critical infrastructure. He also 
supported a $1 trillion infrastructure package.
    Consideration this directive, what do you believe is the 
appropriative amount to allocate to tribes to address their critical 
infrastructure needs?
    Answer. The Department is currently reviewing infrastructure needs 
across Indian Country. The President's infrastructure plan is currently 
under consideration, and as possible consideration moves forward, I 
will seek to work with others in the Administration bring to light 
infrastructure needs across Indian Country.

    Question 7. What is your estimate of the overall need in Indian 
country? What are your top priority infrastructure needs in Indian 
country, and how do you plan to address their critical infrastructure 
needs?
    Answer. I learned very quickly in Congress that our nation's tribes 
are not monolithic. As Secretary, I now know their infrastructure needs 
are equally as diverse. This is why I have tasked leaders within 
Interior to evaluate and assess infrastructure priorities under Indian 
Affairs, which includes Bureau of Indian Education schools. We continue 
to gather and prioritize these needs as part of an ongoing process.

    Question 8. The Federal Government is required to, and has a 
responsibility to, federal agencies to engage in regular and meaningful 
government-to-government consultation and collaboration with tribal 
officials.
    Will the government's consultation policy be appropriately upheld 
with this new Administration?
    Answer. As I stated at the hearing, sovereignty should really mean 
something. I remain committed to collaborating on priorities in Indian 
Country on a government-to-government basis, always as equals, not 
rivals.

    Question 9. What commitments have you made to tribes on investments 
in infrastructure for tribes? Please provide details and any Nevada 
specific information.
    Answer. My team at Interior is evaluating infrastructure needs 
across the Department, including in Indian Country. Those evaluations 
and reviews remain ongoing.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
